<html>
<title> - [H.A.S.C. No. 111-186]STATUS OF IMPLEMENTING THE PHASED ADAPTIVE APPROACH TO MISSILE DEFENSE IN EUROPE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 111-186]

                   STATUS OF IMPLEMENTING THE PHASED

                      ADAPTIVE APPROACH TO MISSILE

                           DEFENSE IN EUROPE

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            DECEMBER 1, 2010



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                      U.S. GOVERNMENT PRINTING OFFICE
  65-294                   WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857746264637f727b673974787a39">[email&#160;protected]</a>  







                    SUBCOMMITTEE ON STRATEGIC FORCES

               JAMES R. LANGEVIN, Rhode Island, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
ROB ANDREWS, New Jersey              TRENT FRANKS, Arizona
RICK LARSEN, Washington              DOUG LAMBORN, Colorado
MARTIN HEINRICH, New Mexico          MIKE ROGERS, Alabama
SCOTT MURPHY, New York
BILL OWENS, New York
                Bob DeGrasse, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, December 1, 2010, Status of Implementing the Phased 
  Adaptive Approach to Missile Defense in Europe.................     1

Appendix:

Wednesday, December 1, 2010......................................    35
                              ----------                              

                      WEDNESDAY, DECEMBER 1, 2010
STATUS OF IMPLEMENTING THE PHASED ADAPTIVE APPROACH TO MISSILE DEFENSE 
                               IN EUROPE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Strategic Forces.....................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Subcommittee on Strategic Forces...............................     2

                               WITNESSES

Macy, Rear Adm. Archer M., Jr., Director, Joint Integrated Air 
  and Missile Defense Organization, Joint Chiefs of Staff........     9
Miller, Hon. James N., Ph.D., Principal Deputy Under Secretary of 
  Defense for Policy, U.S. Department of Defense.................     5
O'Reilly, Lt. Gen. Patrick J., USA, Director, Missile Defense 
  Agency, U.S. Department of Defense.............................     7
Rose, Frank, Deputy Assistant Secretary for Space and Defense 
  Policy, U.S. Department of State...............................    11

                                APPENDIX

Prepared Statements:

    Langevin, Hon. James R.......................................    39
    Macy, Rear Adm. Archer M., Jr................................    64
    Miller, Hon. James N., Ph.D..................................    41
    O'Reilly, Lt. Gen. Patrick J.................................    50
    Rose, Frank..................................................    76
    Tauscher, Hon. Ellen O., Under Secretary of State for Arms 
      Control and International Security Affairs, U.S. Department 
      of State...................................................    81

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    85
    Mr. Turner...................................................    86
 
STATUS OF IMPLEMENTING THE PHASED ADAPTIVE APPROACH TO MISSILE DEFENSE 
                               IN EUROPE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                       Washington, DC, Wednesday, December 1, 2010.
    The subcommittee met, pursuant to call, at 2:16 p.m., in 
room 2212, Rayburn House Office Building, Hon. James R. 
Langevin (chairman of the subcommittee) presiding.
    Mr. Langevin. Good afternoon. The Strategic Forces 
Subcommittee will come to order.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Langevin. Last year, on September 17th, President Obama 
announced the new Phased, Adaptive Approach strategy, or the 
PAA, for defending Europe and the United States against the 
growing threat of a ballistic missile attack, particularly from 
Iran. In his announcement, the President said, and I quote, 
``Our new missile defense architecture in Europe will provide 
stronger, smarter, and swifter defenses of American forces and 
American allies.''
    Last February, as part of the Ballistic Missile Defense 
Review signed by the Secretary of Defense, the PAA strategy was 
expanded to address other regional missile threats.
    Today, the Strategic Forces Subcommittee will review the 
Administration's work on implementing the Phased, Adaptive 
Approach over the last year. We will hear from four 
distinguished witnesses:
    Dr. Jim Miller, Principal Deputy Under Secretary of Defense 
for Policy;
    Lieutenant General Patrick J. O'Reilly, Director of the 
Missile Defense Agency;
    Rear Admiral Archer Macy, Jr., Director of the Joint 
Integrated Air and Missile Defense Organization for the Joint 
Staff;
    And, finally, Mr. Frank Rose, Deputy Assistant Secretary of 
State for Space and Defense Policy.
    I want to thank each of our witnesses for appearing today 
and for your upcoming testimony. I also want to congratulate 
our witnesses and the Administration as a whole for reaching 
agreement during the recent Lisbon Summit on a strategic 
framework for NATO [North Atlantic Treaty Organization]. This 
framework establishes the objective of achieving, ``the 
capability to defend our populations and territories against 
ballistic missile attack as a core element of our collective 
defence, which contributes to the indivisible security of the 
Alliance.''
    NATO-izing missile defense was a primary goal that my 
predecessor, Chairwoman Tauscher, pressed for during her tenure 
in this job. Hopefully the agreement reached at the Lisbon 
Summit will pave the way for rapid implementation of the PAA 
and open opportunities for sharing the burden of regional 
missile defenses with our allies and friends.
    Today, about a year and two months after the announcement, 
the subcommittee will have an opportunity to hear from key 
administration witnesses on efforts to implement the PAA. In 
that regard, we asked our witnesses to address three key 
questions:
    First, what are the key technical milestones that we should 
be watching for in each phase of the plan, and where do we 
stand in achieving those milestones? More broadly, where do we 
stand in defining the technical objectives and components for 
each phase?
    Second, where do we stand in completing the operational 
plans and assessment of missile inventory requirements for each 
phase of the PAA? Specifically, when can we expect to see the 
results of the next Joint Capabilities Mix study?
    Finally, where do we stand in defining the requirements for 
basing elements of each phase of the PAA on European soil and 
on completing the necessary agreements with each of the host 
nations?
    With that, I want to say thanks again to each of our 
witnesses for making time to testify before the subcommittee 
today, and we look forward to hearing your views on the 
questions before the subcommittee today.
    Before I turn the floor over to our ranking member, Mr. 
Turner, for his opening statement, I would like to note that 
this will be the last hearing of the Strategic Forces 
Subcommittee during the 111th Congress and, thus, my last 
hearing as chairman. Let me just say that it has been a 
pleasure to chair the subcommittee over the last year and a 
half, and I would like to thank all of my colleagues for their 
contributions to our work. Thank you.
    But, specifically, I would like to thank the ranking member 
for his partnership in this endeavor. We did not always agree 
or see eye to eye, but I always valued his advice and counsel, 
and I have certainly appreciated his support in this entire 
process and his input. So thank you for that, Mike.
    With that, the Armed Services Committee is a unique 
institution in the House, and I am certainly proud to be part 
of the bipartisan tradition we have maintained from its 
hearings.
    With that, I want to turn it over now to the ranking 
member, Mr. Turner, for any questions or comments that he may 
have.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 39.]

  STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE FROM 
     OHIO, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Well, thank you, Mr. Chairman. I want to thank 
our Chairman Langevin for his bipartisanship and spirit, and 
his leadership of this subcommittee. We certainly know that in 
the National Defense Authorization Act, there are a number of 
issues that you affected very positively, and we greatly 
appreciate your leadership, specifically in the area of 
directed energy, and we certainly look forward to continuing in 
the next Congress your important focus upon the issue of cyber 
threats.
    I would like to welcome Dr. Miller, Mr. Rose, Admiral Macy, 
and General O'Reilly. Let me start with a statement on the 
Phased, Adaptive Approach that I made last April at our missile 
defense budget hearing.
    I offered: There is an opportunity to gain bipartisan 
support on these plans, but the committee must have confidence 
that the PAA is the best approach for protecting the United 
States and our European allies. Our ability to do effective 
oversight and to hold the Administration accountable for its 
implementation of the PAA is based on a continuous dialogue and 
information exchange that must occur between the Administration 
and our committee.
    However, since the Administration's announcement over a 
year ago, this committee has repeatedly sought greater detail 
on plans, analysis, and resource requirements for the PAA. The 
lack of responsiveness to those requests led to the bipartisan 
legislative requirements that were placed in the House-passed 
defense bill, seeking information and cooperation with 
Congress.
    I appreciate efforts by several of you over the last two 
months to remedy this situation. I met with General O'Reilly in 
October to discuss program plans, and yesterday the chairman 
and I received a briefing on how the PAA decision was made.
    We are beginning to get a greater insight into the PAA, but 
there is still a lot we don't know yet. The Institute for 
Defense Analyses was tasked to conduct an independent 
assessment of the PAA and report to Congress by June 1st, 2010. 
I understand the bulk of their work was completed last summer, 
but the report is stuck in interdepartment coordination. I am 
interested in finding when we should expect to receive this 
report.
    Also at our committee's request, the Government 
Accountability Office, the GAO, conducted a review of the 
European Phased, Adaptive Approach, EPAA, and concluded 
although the EPAA identified four phases of capability and 
timeframes for deployment, several key activities necessary to 
establish an acquisition decision framework remain undefined. 
These include finalizing EPAA architectures, systems, 
quantities and locations, determining key top-level EPAA 
acquisition decision points, and determining what constitutes 
phase completion.
    In short, the Department has a significant amount of work 
ahead of it to translate its policy decision into a concrete, 
implementable architecture.
    We still have several outstanding questions on the details 
of PAA, and I hope that our witnesses will address some of 
those today in their testimony.
    First, as stated by the White House last September, the PAA 
approach was based upon an assumption that the long-range 
missile threat is ``slower to develop.'' However, since then, 
troubling new details have emerged on both North Korea and 
Iran's long-range missile programs, and recent revelations show 
that Iran has 19 BM-25 advanced ballistic missiles it acquired 
from North Korea in its arsenals today that can reach Berlin 
and Moscow.
    I have previously stated my concern about a gap in the PAA 
coverage for the United States. The ICBM [intercontinental 
ballistic missile] threat from Iran could materialize as early 
as 2015, according to the latest intelligence assessments, yet 
the PAA is not planned to cover the United States until 2020.
    Now, there would also appear to be a gap in defensive 
coverage against ballistic missiles that can reach Western and 
Central Europe. Do these threat assessments change your 
approach in any way?
    Second, the Administration has committed to a hedging 
strategy for defense of the homeland in case the long-range 
threat comes earlier or technical issues arise with the SM-3 
[Standard Missile-3] Block IIA or IIB interceptors. Can our 
witnesses today discuss the details of this strategy, including 
any acquisition plans and key decision points necessary to 
employ the hedge?
    Third, the Administration's approach to missile defense in 
Europe places emphasis on proven technology, yet we have since 
learned that the SM-3 Block IIB interceptor will be a new 
missile. The SM-3 Block IIA and Airborne Infrared System are 
still in early design and development, and the PTSS [Precision 
Tracking Space System] satellite system doesn't yet exist. The 
GAO found that ``system schedules are highly optimized in 
technology development, testing, production, and integration, 
leaving little room for potential delays.'' So how are these 
technological risks being addressed?
    Fourth, when will the Department determine force structure 
and inventory requirements for the PAA, and when will a total 
cost estimate be completed? Our committee will be challenged in 
assessing whether the budget is sufficient if we do not know 
the required quantities and costs to implement the PAA.
    Fifth, I would appreciate an update on the status of host 
nation discussions for the land-based Aegis sites and forward-
based radar. NATO's endorsement of territorial missile defense 
at the Lisbon Summit is very positive and I commend you and 
your predecessors' efforts towards this outcome. I am also 
interested in U.S. plans for NATO-izing the PAA as well as 
plans for allies' contributions toward PAA.
    Lastly, press reports continue to surface that indicate 
that the U.S. and Russia are negotiating some sort of missile 
defense agreement led by Under Secretary of State Tauscher and 
her Russian counterparts. I remain concerned that the 
Administration might allow Russia to shape its missile defense 
plans, particularly for long-range missile defenses in Europe, 
in exchange for Moscow's adherence to the New START [Strategic 
Arms Reduction Treaty] Treaty. I would appreciate our witnesses 
discussing the exact nature and scope of the missile defense 
discussions that are ongoing with Russia.
    On a final note, I want to once again thank Chairman 
Langevin. I appreciate your leadership and look forward to 
working with you on the important bipartisan oversight issues 
that we face in the 112th Congress. And I want to thank our 
witnesses here today for their contribution to what is the 
important issues of our national security.
    Thank you.
    Mr. Langevin. I want to thank the ranking member.
    Now we turn it over to our witnesses and ask each of them 
to summarize their written statements in about five minutes. 
The committee has received full written statements from each of 
the witnesses, and without objection those statements will be 
made part of the record.
    With that, Dr. Miller, the floor is yours.

  STATEMENT OF HON. JAMES N. MILLER, PH.D., PRINCIPAL DEPUTY 
   UNDER SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary Miller. Mr. Chairman, Ranking Member Turner, 
members of the subcommittee, thank you for the opportunity to 
testify today. It is a pleasure to join my colleagues, General 
O'Reilly, Admiral Macy, and Mr. Rose.
    As the chairman stated, in September of 2009, the President 
approved what was a unanimous recommendation of the Secretary 
of Defense and the Joint Chiefs of Staff for a Phased, Adaptive 
Approach to missile defense in Europe. Since that time, the 
Administration has made tremendous progress; most recently, as 
noted, at the Lisbon Summit, where allies agreed to pursue a 
territorial missile defense to protect NATO populations and 
territories. We are here to provide the subcommittee with a 
progress report, and in the interests of time we will all 
briefly summarize our statements.
    As you know, the European Phased, Adaptive Approach has 
four phases. The Administration plans to deploy all four phases 
and has made excellent progress on each over the last year.
    Phase 1, which starts in 2011, will rely on the SM-3, 
Standard Missile 3, Block IA interceptor, based on ships. We 
have had a number of successful tests of this interceptor. It 
remains in production. Some are deployed; 112 will be delivered 
by fiscal year 2012.
    The Navy continues to convert Aegis ships to have a 
ballistic missile defense capability. We currently have 20 BMD-
capable ships, and will convert to a total of 37 by the end of 
fiscal year 2015.
    In early 2011, a BMD-capable Aegis ship carrying SM-3 Block 
IA interceptors will be deployed to the Eastern Mediterranean 
and Phase 1 of the EPAA will have started.
    We still have one important phase, one test to accomplish. 
We plan to deploy a forward-based radar in southern Europe in 
2011. We are currently in discussions with potential host 
nations, and while no decision has been made, we expect to meet 
the deployment timeline in 2011.
    In Phase 2, which starts in the 2015 timeframe, we will 
continue with ship-based deployments and add a land-based 
Standard Missile-3 site in Romania. Romania agreed to host U.S. 
interceptors in February of this year and follow-on 
negotiations are underway. We plan to deploy 24 SM-3 
interceptors in Romania. During Phase 2, these interceptors 
will be upgraded and we will add the improved Block IB of the 
Standard Missile-3.
    The Department of Defense is now developing the SM-3 Block 
IIB. Some 180 of these missiles will be delivered by fiscal 
year 2015 when Phase 2 starts, and 324 by fiscal year 2017.
    In Phase 3, which starts in the 2018 timeframe, we will 
deploy it at a land-based SM-3 site in Poland. Poland agreed to 
host this site in October 2009, not long after we announced the 
European Phased, Adaptive Approach. In July of 2010, Poland and 
the United States signed a protocol amending our ballistic 
missile defense agreement and, in addition, we have signed and 
ratified a supplemental status of forces agreement with Poland.
    In Phase 3, we will introduce another new variant of the 
SM-3 missile, the IIA, which is currently in development in a 
cooperative program with the Japanese. It will have its first 
intercept test in 2014 and will enter service by 2018. We plan 
to deploy 24 SM-3 interceptors in Poland. That means we will 
have 48 land-based SM-3 interceptors deployed by Phase 3; 24 in 
Romania and 24 in Poland. That is about five times the number 
of interceptors planned under the previous third site approach. 
We will also have additional reloads in storage, plus the ship-
based interceptors I referred to before.
    Finally, Phase 4 will occur in the 2020 timeframe. The key 
added capability for Phase 4 will be the next-generation SM-3 
interceptor, the Block IIB. This interceptor will provide early 
intercept capability against medium- and intermediate-range 
ballistic missiles and, very importantly, against potential 
ICBM threats from Iran or elsewhere in the Middle East.
    The Missile Defense Agency is conducting concept 
development and component technology development during this 
fiscal year for the SM-3 Block IIB, and the request for 
proposals for the concept development for this missile was 
issued in October of 2010. So we are on track for all four 
phases of the Phased, Adaptive Approach in Europe.
    We have also made tremendous progress in NATO. Shortly 
after the announcement of the European Phased, Adaptive 
Approach in fall 2009, NATO Secretary General Rasmussen stated 
his strong support. In December 2009, all NATO foreign 
ministers unanimously welcomed the EPAA, and at the Lisbon 
Summit, concluded about two weeks ago, NATO leaders agreed to a 
new NATO mission: to protecting the Alliance's populations and 
territories against ballistic missile attacks.
    As part of the announcement of the EPAA last year, the 
Administration welcomed Russian cooperation on missile 
defenses. Seeking missile defense cooperation with Russia makes 
good sense, but it is not new. President Reagan proposed such 
cooperation with the Soviet Union in the 1980s; President G.W. 
Bush pursued cooperation on missile defense with Russia 
throughout his Administration.
    Some have suggested recently that the U.S. proposal for 
ballistic missile defense cooperation with Russia represents a 
``secret deal.'' This is nonsense. There is no ``secret deal'' 
on missile defense nor negotiations for such a thing.
    The Administration has told Congress repeatedly, including 
in testimony, that we are pursuing missile defense cooperation 
with Russia. These discussions are separate from New START 
discussions that have taken place, and in conducting these 
discussions the Administration has made clear to Russia, to 
allies, to Congress, and to all others that the United States 
will not agree to any limitations or constraints on U.S. 
ballistic missile defenses and that the United States intends 
to continue improving and deploying BMD systems to defend the 
United States, our deployed forces, and our allies and 
partners.
    Finally, as we implement EPAA, we also continue to maintain 
and improve our defenses of the homeland. The U.S. homeland is 
currently protected against a threat of limited ICBM attack by 
30 ground-based interceptors which will all be deployed by the 
end of this fiscal year at Fort Greely, Alaska, and Vandenberg 
Air Force Base, California. So we have a capability today to 
counter the projected threats from North Korea and Iran.
    At the same time, because the threat is unpredictable, we 
are hedging by completing Missile Field 2 in Alaska to allow 
for rapid emplacement of up to eight additional ground-based 
interceptors, and we are also continuing development of the 
two-stage ground-based interceptor. And as I noted before, the 
EPAA, the European Phased, Adaptive Approach, will also 
contribute to the defense of the United States homeland.
    In conclusion, the threat posed by ballistic missiles is 
real and it is growing. As we said in our Ballistic Missile 
Defense Review, it is growing both qualitatively and 
quantitatively. Our missile defenses today are also very real, 
and our capabilities are also growing, both qualitatively and 
quantitatively.
    We look forward to working with this subcommittee and with 
Congress in implementing the European Phased, Adaptive Approach 
and in implementing the rest of our missile defense efforts as 
well.
    Thank you, and I look forward to your questions.
    [The prepared statement of Secretary Miller can be found in 
the Appendix on page 41.]
    Mr. Langevin. Thank you, Dr. Miller. I want to thank you 
for your testimony.
    With that, I now recognize General O'Reilly for your 
opening remarks.

   STATEMENT OF LT. GEN. PATRICK J. O'REILLY, USA, DIRECTOR, 
       MISSILE DEFENSE AGENCY, U.S. DEPARTMENT OF DEFENSE

    General O'Reilly. Good afternoon, Chairman Langevin, 
Ranking Member Turner, other distinguished members of the 
subcommittee. It is my honor to testify before you today on the 
status of the European Phased, Adaptive Approach, or EPAA, for 
developing missile defense of our homeland, deployed forces, 
and NATO European allies.
    The Missile Defense Agency, or MDA, is committed to 
disciplined management to efficiently create effective missile 
defense in the four phases outlined by the Ballistic Missile 
Defense Review.
    Over the next decade, we are developing integrated missile 
defense that will provide robust capability using advanced 
sensors and a combination of interceptors for multiple 
intercept opportunities against short-, medium-, intermediate-
range and intercontinental ballistic missiles, or SRBMs, MRBMs, 
IRBMs and ICBMs.
    During the past year, we have made significant progress in 
implementing the EPAA, and I report to you that we are 
executing all of our programs according to the EPAA timelines.
    Our greatest priority remains strengthening homeland 
missile defense. We continue to upgrade our ground-based 
midcourse defense system, expand our sensor network, and 
develop a new interceptor, the SM-3 IIB, which will add a layer 
of defense against potential future ICBMs launched from current 
regional threats.
    During the past year, we emplaced the 30th ground-based 
interceptor, or GBI, restarted the GBI production supply chain, 
upgraded two of the original GBIs, conducted the first two-
stage GBI flight test, installed a training node at Fort 
Greely, Alaska, upgraded the Thule, Greenland, early warning 
radar, and planned the Clear early warning radar upgrade in 
Alaska. Finally, we are on track to complete construction of 
our missile fields at Fort Greely by February 2012.
    Much progress has been made in 2010 developing the EPAA 
Phase 1, which will provide initial protection of southern 
Europe from existing SRBM and MRBM threats. During the past 
year, we increased the number of BMD-capable ships to 20, we 
delivered 26 SM-3 IA interceptors, and supported the Japanese 
conducting the tenth intercept of an SRBM with the SM-3 IA 
interceptor.
    We intercepted the lowest altitude engageable target of the 
Terminal High-Altitude Area Defense, or THAAD system, delivered 
a second THAAD battery, and began the initial production of 26 
interceptors and two more THAAD batteries. Initially, we 
demonstrated the integration of the AN/TPY-2 [Army Navy/
Transportable Radar Surveillance] radar with THAAD or Aegis in 
eight flight tests and began refurbishment of an AN/TPY-2 radar 
for deployment in southern or southeastern Europe next year. 
Finally, we supported multiple interoperability demonstrations 
with the NATO Active Layered Theatre Ballistic Missile Defense 
System.
    EPAA development Phase 2 will be completed by 2015 and will 
provide greater defense against larger missile raid sizes and 
improve discrimination of ballistic missile threats, using 
remote radars and the SM-3 IB and SM-3 IA interceptors at sea 
and in a land-based or ashore configuration.
    During the past year, we awarded the Aegis Ashore systems 
engineering contract and supported a U.S.-Romanian site 
selection team for the first deployed Aegis Ashore site. We 
also have begun at-sea operational testing of the upgraded 
Aegis fire control software for EPAA Phase 2 on the USS Lake 
Erie.
    EPAA development Phase 3 will be completed in 2018 and 
provide defense against increasing raid sizes of SRBMs, MRBMs, 
and intermediate-range ballistic missiles over large areas of 
Europe, using the SM-3 IIA interceptors at sea and at Aegis 
Ashore sites in Romania and Poland, Airborne Infrared, or ABIR, 
remotely piloted vehicles and the Precision Tracking Space 
System, or PTSS.
    During the past year, we began ground testing the SM-3 IIA 
interceptor components with the Japanese in preparation for 
flight test in 2014. We conducted five ABIR flight tests 
demonstrating missile tracking accuracy. We tracked missiles 
from space with the Space Surveillance Tracking System, and 
completed a concept review for the PTSS to support production 
planning contracts starting in 2011.
    EPAA development Phase 4 will be completed in 2020 and 
provide early intercept capability against large raid sizes of 
MRBMs and IRBMs and potential ICBMs from today's regional 
threats.
    During the past year, we completed the SM-3 IIB System 
Concept Review and solicited three competitive concept 
definition contracts of which one industry team will be 
selected in 2013 to complete development and begin flight 
testing of the SM-3 IIB in 2016.
    Finally, in fiscal year 2010, the Missile Defense Agency, 
in full collaboration with the developmental and operational 
test communities, updated our test plans for the EPAA, which 
include 72 flight tests and 107 ground tests over the next 
decade.
    I look forward to answering your questions, and thank you.
    [The prepared statement of General O'Reilly can be found in 
the Appendix on page 50.]
    Mr. Langevin. Thank you, General.
    Before we go to Admiral Macy, we have a vote on right now. 
I think we will be able to get through Admiral Macy's 
testimony, and then we will recess and then go to vote. There 
are five votes, and then we will return for Mr. Rose's 
testimony and then go into questions.
    With that, Admiral Macy, the floor is yours.

  STATEMENT OF REAR ADM. ARCHER M. MACY, JR., DIRECTOR, JOINT 
 INTEGRATED AIR AND MISSILE DEFENSE ORGANIZATION, JOINT CHIEFS 
                            OF STAFF

    Admiral Macy. Thank you. Good afternoon, Chairman Langevin, 
Ranking Member Turner, and other distinguished members of the 
subcommittee. I appreciate the opportunity to discuss the 
Phased, Adaptive Approach for ballistic missile defense along 
with Dr. Miller, General O'Reilly and Mr. Rose.
    I will summarize the operational benefits of the PAA as the 
U.S. approach to missile defense which is responsive to both 
congressional direction and the warfighters' needs. I will also 
touch on the planning and analysis undertaken by the Joint 
Staff to help guide decisions on maximizing combatant commander 
war-fighting capability. Additional details are contained in my 
submitted written testimony.
    While a majority of our remarks today will address the 
European Phased, Adaptive Approach in some detail, I want to 
emphasize here that the PAA is a conceptual approach to 
providing ballistic missile defense capability for the homeland 
and our forces, allies, and partners in different regions, 
circumstances, and times. It is a realignment and an 
operational enhancement of our BMDS [Ballistic Missile Defense 
System] plans and is not a replacement. The realignment 
provides us with a greater capability through a flexible and 
adaptable approach which focuses on protecting those most at 
risk today, while continuing to improve our capability against 
future threats.
    As has been noted by the Congress, the most pressing threat 
for our deployed forces today is the increasing number of 
short-range and medium-range ballistic missiles. The PAA 
addresses these issues head-on.
    The U.S. cannot afford to build the number of launchers, 
interceptors, and sensors it would take for each combatant 
commander to have his own dedicated BMDS capability that can 
address all the potential strikes that could be launched at any 
time. What the PAA provides instead is a balanced investment 
that has the capability to engage the range of threats, can be 
tailored to the geography, political circumstances, and defense 
capabilities of regional partners, and has the flexibility to 
rapidly deploy more assets where and when they are needed.
    The PAA concept provides the United States with an enhanced 
capability to respond to regional threats worldwide, no matter 
where they emerge, and to strengthen defense of the homeland. 
The PAA is phased to advances in our own technical and 
operational capabilities for ballistic missile defense, and it 
is adaptive to trends and advances in potential adversarial 
threats.
    We speak of four phases in advances of our technical 
capabilities. However, the same number and timing of 
application of individual phases may not be applied in each 
combatant commander's AOR [area of responsibility] the same 
way. We are developing plans for phases for each AOR with the 
European PAA currently being the most advanced, a majority of 
which General O'Reilly has described.
    I earlier alluded to the planning and analysis we have 
underway to support PAA implementation, and as the chairman and 
Mr. Turner noted, this includes the Joint Capabiliies Mix 
study. We previously conducted JCM-1 in 2005-2006, and JCM-2 in 
2007-2008. The latter was briefed to this subcommittee in 
September of that last year.
    The final report on the current assessment, JCM-3, which 
focuses on the force requirements for the PAA, will not be 
completed until March of 2011, so I do not have any results I 
can discuss today. However, I think it is important to 
understand what this study is, how it is being executed, and 
the kind of results that will be produced. I will note that I 
look forward to the opportunity next spring to discuss those 
results with this subcommittee when they are available.
    JCM-3 is examining our missile defense strategy in the PAA 
to inform decisions on the number and type of sensors, 
launchers, and interceptors we require. In order to determine 
force needs at this level of granularity, we have to take into 
account how the combatant commands intend to employ them, what 
the threats are, and generally how the threat will be expected 
to be employed.
    The analysis is being executed by JIAMDO [Joint Integrated 
Air and Missile Defense Organization], my organization, in 
conjunction with representatives from the combatant commands, 
the Missile Defense Agency, the services, and OSD [Office of 
the Secretary of Defense] Cost Assessment and Program 
Evaluation, CAPE.
    In parallel with the JCM-3 study, the Joint Staff, U.S. 
Strategic Command, and the staffs of PACOM [United States 
Pacific Command], EUCOM [United States European Command] and 
CENTCOM [United States Central Command] are conducting formal 
planning for how the PAA will be implemented in their areas of 
responsibility. Further, EUCOM is working closely with NATO to 
develop the concept of operations, command and control plans, 
and planning factors for the implementation of the recent NATO 
decision at Lisbon to incorporate missile defense as a core 
element of the collective defense.
    In conclusion, the Department is investing a significant 
portion of its budget in missile defense and the PAA is 
providing the necessary framework to ensure it is invested 
effectively and wisely and, most importantly, meets the 
warfighters' needs. We have established a solid process and an 
analytic approach to monitor and guide the implementation of 
the PAA, and we expect to develop and field the phases in the 
most operationally effective and cost-efficient manner 
possible.
    Thank you for the opportunity, and I look forward to 
answering your questions.
    [The prepared statement of Admiral Macy can be found in the 
Appendix on page 64.]
    Mr. Langevin. Thank you, Admiral Macy.
    As I said, we are going to recess right now. We will begin, 
when we return, with Mr. Rose's testimony, and then go into 
questions. With that, the subcommittee stands in recess.
    [Recess.]
    Mr. Langevin. The committee will come to order. I want to 
thank our witnesses for their patience. With that, I want to 
resume now by turning the floor over to Mr. Rose, last but not 
least. We look forward to your testimony.
    Thank you.

 STATEMENT OF FRANK ROSE, DEPUTY ASSISTANT SECRETARY FOR SPACE 
          AND DEFENSE POLICY, U.S. DEPARTMENT OF STATE

    Secretary Rose. Chairman Langevin, Ranking Member Turner, 
members of the subcommittee, thank you for the opportunity to 
testify today on the Obama administration's efforts to 
implement the European Phased, Adaptive Approach, or EPAA.
    As many of you know, I worked for this subcommittee for two 
and a half years, and this is my first opportunity to sit on 
the other side of the table and testify. I look forward to 
answering your questions.
    Under Secretary Tauscher sends her regrets that she could 
not participate in person. Instead, she has prepared a 
statement and has asked that it be included in the record of 
today's hearing.
    Mr. Chairman, I would like to focus my opening remarks 
today on the progress we have made in implementing the EPAA 
over the past year. Last year, President Obama committed the 
United States to a comprehensive new plan to provide missile 
defense protection to our NATO Allies and the United States. 
This plan will defend against the existing short- and medium-
range threat and evolve as the threat evolves. This plan has 
opened up new opportunities for cooperation with our Allies and 
has enhanced NATO's Article 5 commitment to collective defense.
    At the Lisbon summit two weeks ago, NATO agreed to develop 
a missile defense capability to defend its territory, 
populations, and forces against ballistic missile attack. In 
the summit declaration, NATO heads of state and government 
stated, ``The threat to NATO European populations, territory, 
and forces posed by the proliferation of ballistic missiles is 
increasing. As missile defence forms part of a broader response 
to counter this threat, we have decided that the Alliance will 
develop a missile defence capability to pursue its core task of 
collective defence.''
    Additionally, the Alliance agreed to expand its missile 
defense command and control system to include territorial 
missile defense. This will enable voluntary national 
contributions from the United States and other NATO Allies to 
plug into the overall NATO capability.
    Finally, the Alliance welcomed the EPAA as an important 
national contribution to this NATO capability.
    Mr. Chairman, it is important to know that while NATO has 
been involved in missile defense since the late 1990s, that 
work has been strictly limited to defending its military forces 
from ballistic missile attack, not defending its territory and 
populations. It has been a long-standing bipartisan goal of the 
United States to expand the Alliance's work on missile defense, 
to include defense of territory and populations. Therefore, the 
significance of NATO's decision on missile defense at Lisbon 
should not be underestimated. It is a major diplomatic victory 
for the United States and the Alliance as a whole.
    In addition to the recent success at NATO, we have also 
made significant progress in implementing the bilateral 
agreements that are necessary to deploy elements of the EPAA in 
Europe.
    On the deployment of the Phase 1 radar in southeastern 
Europe, once agreement on a location has been reached, we are 
prepared to immediately begin formal negotiations on a basing 
agreement.
    For Phase 2, Romania has agreed to host a land-based SM-3 
site. We began negotiations on a basing agreement in June of 
this year, and are making excellent progress towards a final 
document. The United States and Romania already have a 
supplemental Status of Forces Agreement in force.
    Finally, Poland agreed in October 2009, to host the Phase 3 
SM-3 site. On July 3, 2010, the United States and Poland signed 
a protocol amending the original 2008 Ballistic Missile Defense 
Agreement, which will allow for the deployment of a land-based 
SM-3 interceptor site in Poland. The next step is to bring this 
agreement into force through ratification by the Polish 
Parliament. Earlier, in February 2010, the Polish Government 
ratified a supplemental SOFA [Status of Forces Agreement] 
agreement with the United States.
    Before I close, let me touch on the subject of missile 
defense in Russia. Like the previous Administration, we believe 
that missile defense cooperation with Russia, both bilaterally 
and at NATO, is in the national security interest of the United 
States. In Lisbon two weeks ago, NATO and Russia agreed on a 
number of missile defense cooperative activities, including the 
resumption of theater missile defense exercises.
    As President Obama stated, by moving ahead with cooperation 
on missile defense, we can turn a source of past tension into a 
source of cooperation against a shared threat. That said, even 
as we seek greater cooperation with Russia on missile defense, 
the United States will continue to reject any constraints or 
limitations on our missile defense programs. Restrictions or 
limitations on U.S. missile defense capabilities are not under 
discussion. Let me reiterate what Secretary Miller said. There 
are no secret deals with Russia to limit our missile defenses.
    Finally, let me also say that Russia will not have a veto 
over U.S. missile defenses in Europe or anywhere.
    Mr. Chairman, Ranking Member Turner, let me stop there. I 
will be happy to answer any questions. Thank you very much.
    [The prepared statement of Secretary Rose can be found in 
the Appendix on page 76.]
    Mr. Langevin. I thank Mr. Rose for his testimony, and I 
should also say welcome back, Mr. Rose, to the Congress and to 
the committee where you served prior to your current position. 
It is great to have you back, and you are one of two witnesses 
today that are alumni of the Armed Services Committee staff, 
the other being Dr. Miller. Welcome back to both of you, I 
should say.
    With respect also to Ms. Tauscher's testimony, I ask 
unanimous consent that Secretary Tauscher's testimony be 
inserted into the record.
    Without objection, so ordered.
    [The prepared statement of Secretary Tauscher can be found 
in the Appendix on page 81.]
    Mr. Langevin. I would ask on a personal note on behalf of 
myself and the subcommittee to give our best to Secretary 
Tauscher and we look forward to seeing her in the very near 
future.
    With that, let me turn the first question to General 
O'Reilly. It is my intention also, I should mention, to do two 
rounds of questions. I am going to take latitude as chair for 
an extended period of time, and I will extend that courtesy to 
the ranking member. And then we will go to the five minute rule 
for the other members of the subcommittee. As I said, we will 
go to a second round of questions as well.
    Beginning with General O'Reilly, last October the 
subcommittee asked GAO to evaluate the Department's plans for 
implementing the Phased, Adaptive Approach for missile defense 
in Europe. Last month, the GAO delivered a draft report. One of 
the key conclusions is, ``The administration's EPAA policy 
committed DOD to a schedule that will be challenging to meet 
based on the technical progress of missile defense element 
development and testing programs, and before the scope of the 
development efforts were fully understood.''
    So, General O'Reilly, could you tell us what measures are 
being considered to mitigate the consequences of any potential 
test failures or delays that might lead to production gaps or 
otherwise result in schedule delays for delivering planned 
capabilities to combatant commanders?
    General O'Reilly. Sir, the plans that we have laid out for 
each of the elements of the Phased, Adaptive Approach were 
designed based on traditional development of missile systems 
and their fire control systems. We have looked at the 
development timelines, and the ones we have used in the Phased, 
Adaptive Approach are actually longer than what you can compare 
them to with our other missile defense programs. So our 
assessment is this is a conservative set of schedules.
    We have also laid in decision points, which I have briefed 
the GAO on, of different technological maturity levels that 
will be reached before we move to each of the development 
phases of our program. So we deem this to be a very manageable 
risk and laid out in a very prudent approach to developing 
these systems.
    I will note that some of their analysis was comparing our 
missile developments of just the missile to system 
developments, which are more comprehensive. And one of the 
advantages of using the Aegis system as the mainstay for our 
capability for the EPAA is we evolve it from one fire control 
capability to the next, and in between we bring a new missile 
on board. And that does, in fact, reduce the amount of new 
technology that has to be applied and also has a more 
deliberate delivery approach.
    Mr. Langevin. Well, as a follow-on, since each successive 
phase delivers additional capability, how will you mitigate 
delays for equipment deployment in one phase from affecting 
preparations for the next phase?
    General O'Reilly. The capabilities are developed in phases 
that are aimed at specific threat classes that we are trying to 
negate. And, as we said, Phase 1 is aimed at medium ballistic 
missiles and short-range and intermediate-range ballistic 
missiles. If we had a problem with the subsequent phase, in 
each phase it would usually equate to producing or deploying 
additional numbers of missile defense systems. Since our 
systems are flexible and since they are mobile, we have the 
ability to add capability in if we found in fact we needed--we 
only had shorter-range interceptors versus using longer-range 
ones of a subsequent phase.
    So we believe the adaptability itself of the system allows 
you to adjust to the capability that is available at any given 
time.
    Mr. Langevin. Thank you, General.
    Dr. Miller, the GAO also concluded that ``DOD has not fully 
implemented a management process that synchronizes the European 
Phased, Adaptive Approach acquisition activities and ensures 
transparency and accountability. The DOD has made progress in 
acquisition planning for technology development, system 
engineering and testing, partial progress in defining 
requirements and identifying stakeholders, but has not yet 
developed an EPAA acquisition decision schedule or an overall 
EPAA investment cost.''
    Dr. Miller, how do you respond to GAO's concern expressed 
in the draft report to the committee? Does OSD have the 
appropriate acquisition plans with milestones and budget, to 
track progress in each phase of the PAA?
    Secretary Miller. Mr. Chairman, I would like to answer but 
then give an opportunity for General O'Reilly also to answer as 
the acquisition executive for the systems and for the missile 
systems involved here.
    At the outset of this effort and, indeed, throughout the 
Ballistic Missile Defense Review, we looked at the likely costs 
associated with the Phased, Adaptive Approach and had an 
overall estimate for those costs associated with missiles, 
sensors, and so forth. As each of those programs matures, we 
have seen the refinement of those cost estimates and currently 
believe that we have a pretty good grasp on what the overall 
cost of this program will be. One of the uncertainties or one 
of the choices one makes is how to ascribe the cost of the 
Aegis BMD-capable ships associated with that. Because they are 
a global asset, we generally don't include them in our cost 
estimates for the cost of Phased, Adaptive Approach for Europe.
    Now with respect to oversight of the program, in addition 
to the Missile Defense Executive Board, which meets regularly 
and reviews this and other elements of missile defense, the 
Missile Defense Agency's programs, including all of the Phased, 
Adaptive Approach-related programs, come in for, as you know, 
an annual review in the Department and get a pretty intensive 
scrub. And that has been the case this year, as it was 
throughout the course of the conduct of the Ballistic Missile 
Defense Review.
    My sense is that we have a very good understanding of what 
the key technical risks are associated with each of the 
elements of the Phased, Adaptive Approach and that we have a--
and that General O'Reilly and the Missile Defense Agency have a 
clear, lined-up program of activities that stretch from today 
through the coming decade for when the key milestones will be, 
when they need to get key systems on contract, and what other 
key decisions are.
    General O'Reilly. Thank you. Sir, for each one of our 
programs in the EPAA, as the acquisition executive I have 
established six baselines--cost, schedule, technical, 
operational, contracts, and test baselines. This is far more 
descriptive that is in a typical acquisition program baseline. 
Ours is more detailed. If there is a lead service involved, 
like the Navy or Army or Air Force, I have asked and received 
cooperation from their acquisition executives. So when I sign 
these baselines, the service that is going to be the lead 
service for these capabilities also signs the baseline after 
they have conducted their own reviews. So it is unprecedented 
that a joint program actually has two service acquisition 
executives, or the service acquisition executive and myself as 
missile defense. We perform twice the amount of reviews you 
would normally see.
    Also, as Dr. Miller said, the Missile Defense Executive 
Board does perform a lot of the duties that a Defense 
Acquisition Board would perform. So instead of typically having 
a Defense Acquisition Board review once every two to three 
years, I have a review once every two to three months. So it is 
a very integrated, technical management approach. It is very 
visible. And I have provided those baselines and we will 
continue to update those baselines over the course of the 
development of the EPAA.
    Mr. Langevin. General, do you have an overall cost estimate 
on each phase of the PAA and sufficient mechanisms there to 
track that cost growth there?
    General O'Reilly. Yes, sir, we do, and that is part of our 
baselines, not only for each individual element but also the 
aggregate, as we understand the definition of the architecture 
of the EPAA. And the reason I say that is we use an analytical 
architecture, but it is the combatant commander, the European 
Command, that determines what the war plans and the actual 
architecture will be. And that is submitted to the Joint Staff 
for approval. And that is currently going through that process. 
I will let Admiral Macy address that. But once that is produced 
we then can take our unit costs, and very quickly be able to 
determine precisely what the costs are. But we do have 
estimates today.
    Mr. Langevin. Very good.
    Admiral Macy, in April we received testimony from the 
Department that, ``The Joint Staff is leading a review which 
includes an examination of how the Global Force Management 
process will incorporate the updated missile defense policy and 
planning guidance contained in the Ballistic Missile Defense 
Review. The review will be completed in the summer of 2010. 
Additionally, the Joint Capability Mix-3 study will determine 
inventory levels of BMD assets by spring 2011.''
    Admiral Macy, two related questions. First, can you provide 
us with an update on the status of the Global Force Management 
process? And, second, if the JCM-3 study is completed in the 
spring, how soon do you expect that inventory requirements and 
associated cost specifics to Phase 2, 3 and 4 can be formulated 
and made available to Congress?
    Admiral Macy. Thank you, Mr. Chairman. The Global Force 
Management development project was a several-months-long effort 
to understand was there anything that was different about how 
you do ballistic missile defense and how you would handle the 
management of forces? We have for many years, of course, had 
Global Force Management. It is how you determine which 
divisions go where, which Air Force fighter squadrons go where, 
which ships go where in any given year. This is an effort that 
is run between the Joint Staff, Strategic Command, and Joint 
Forces Command.
    So the study was to look at, okay, is there something 
different about ballistics missiles that affects that? There 
were some things learned out of that. Those have been folded 
into--and it did wrap up in the late spring, early summer. 
Those have since been wrapped into the effort that I alluded to 
earlier, which is the ongoing planning effort being led by 
Strategic Command on how to do management of ballistic missile 
defense in the different regions at different times and across 
the globe--the problem, of course, being that you have a finite 
number of ships, a number of THAAD batteries, a number of TPY-2 
radars, and everybody wants them. So the question is, who gets 
them, and how often, and when do you need them?
    We don't envision either the need or the ability to station 
everything 24-7, 365 wherever we might want it. And that comes 
into the Global Force Management on what will be, if you will, 
permanently emplaced; what will be on a regular deployment 
schedule; and what will be on a surge deployment schedule. That 
process is going on now. It goes through a series of reviews, 
culminating with reviews led by the Vice Chairman, and it will 
wrap up this coming spring. So I would expect that this spring, 
we will be able to come back and talk to you, on a global scale 
and on a management scale, how we would do that. Obviously, we 
are not going to get into the details of individual concept(?) 
plans, but we will be able to describe to you what we think 
will be the way we will manage that.
    At the same time--and these are interrelated because part 
of the discussion that you have with the COCOM [combatant 
command] about what do you think you need in a time of low 
tension versus what do you need in a time of high tension 
figures into, how does the COCOM think he is going to fight? As 
I discussed in my testimony, that drives how you do the JCM-3 
study to figure out what do you think you are going to need--
how many interceptors, how many launching platforms, and how 
many sensor systems.
    And so as those two studies wind in and out between each 
other to figure out what is the answers, they will result in a 
set of options that the senior decisionmakers can look at and 
say okay, these are the ways in which I will deploy forces in 
times of low, medium and high tension and where to, and having 
decided that, these are how many I need to handle the steady 
state, and this is how many I need to handle the surge 
condition. We will be looking at things like utility curves; 
when do you not have to buy any more interceptors because it 
doesn't buy you that many more days within a particular 
conflict? The details will obviously be classified. And when we 
come back in the spring we will have that discussion. We will 
be ready to go into a great deal of depth.
    So the date answer to your question, if you will, Mr. 
Chairman, is I hope to personally in the April timeframe be 
sitting down with your staffs as an initial review of the 
details preparatory to taking them up to the members of the 
committee.
    Mr. Langevin. Very good. Thank you, Admiral. We look 
forward to that when it occurs.
    My final couple of areas for each of the witnesses, talking 
about base agreements and NATO integration. I wanted to, first 
of all, again congratulate you on the recent achievement at the 
NATO summit in Lisbon in gaining support for territorial 
missile defense and the PAA. The questions are for Mr. Rose and 
Dr. Miller.
    Looking forward, what are the remaining challenges in 
ratifying the necessary basing agreements in the host countries 
and in finalizing a location for the radar site in Phase 1? And 
then, for General O'Reilly or Dr. Miller, how does the recently 
announced NATO decision to facilitate integration of NATO 
members' missile defense systems into a unified NATO framework 
affect the current EPAA plans?
    Secretary Rose. Sir, let me start with Phase 1. We are 
discussing with a number of nations the potential deployment of 
the Phase 1 radar. We are confident that we can meet, from a 
legal perspective in getting the agreements in place, the 
timeline of the end of 2011.
    With regards to Phase 2, the land-based SM-3 site in 
Romania, we are making good progress on the Ballistic Missile 
Defense Agreement. We already have an existing supplemental 
SOFA as well as a Defense Cooperation Agreement. So we hope to 
come to conclusion on that soon. I can't give you a date 
because these negotiations--that is how negotiations go--but we 
are very confident that we will have the agreements in place 
for Phase 2. Now that will need to be ratified, the Ballistic 
Missile Defense Agreement, by the Romanian Parliament. But we 
have been told by the Romanian Government they don't foresee 
any challenges.
    With regards to Phase 3 and Phase 4, in Poland we signed a 
protocol this July to the 2008 basing agreement and we are 
awaiting ratification of that agreement by the Polish 
Parliament.
    With regards to NATO, now that the political decision has 
been made, the individual committees--the operational side of 
the house, the technical side of the house--will begin to do 
the work to implement that decision.
    Secretary Miller. I will just add very briefly with respect 
to the TPY-2 radar which we intend to deploy by the end of 
2011, we currently have a couple deployed overseas there. They 
can be moved relatively rapidly. As you know, Mr. Chairman, as 
you know, we have one in Japan and we have put one in Israel. 
And we are still confident that the timelines for moving that 
equipment and getting that established are very achievable.
    General O'Reilly. Sir, and I would like to add as far as 
from point of interoperability, our systems were built from the 
beginning using NATO protocols and NATO standards so that our 
systems are interoperable with other systems that have been 
built to NATO standards. As I said in my testimony, the most 
effective missile defense is to have layers so you can have 
several opportunities to intercept an incoming missile. The 
U.S. contribution to NATO and EPAA is primarily an upper-tier, 
what we call, would be your first shot opportunity, either in 
outer space or in the upper atmosphere. Our fire control 
systems will be interlinked with the Active Layered Theatre 
Ballistic Missile Defence System that NATO is developing, which 
would coordinate the utilization of their lower-tier systems, 
such as Patriot and some of the early Aegis missiles, and some 
of the other missile defense systems that they have already 
procured. So we will maximize the combined capability of both.
    We began two years ago with a direct link between the 
testbed. The laboratory that NATO uses to develop their command 
and control in Den Haag is directly connected with our 
laboratory in Colorado Springs, so that as we develop software 
we assure ourselves that they are interoperable, and we have 
taken that into account and it is a very useful tool having 
both of those for further development of command and control 
approaches.
    Sir, from an operational point of view, I would defer to 
Admiral Macy.
    Admiral Macy. Mr. Chairman, I have, in one of my other hats 
I have the privilege of being the U.S. representative to the 
NATO Air Defense Committee and, as such, have been involved in 
these discussions for quite some time. NATO has been discussing 
this over the past year at some length. There have been a 
number of position papers done. The NATO Air Defense Committee 
has done a number of papers coming out of previous tasking at 
the Strasbourg-Kehl summit of several years ago. There has 
already been initial CONOPS [Concept of Operations] development 
going on. It is both convenient and useful, of course, that the 
Commander of European Command is also SACEUR [Supreme Allied 
Commander Europe] and the Commander of U.S. Air Forces Europe 
is the NATO Commander AIRNORTH [Allied Air Forces Northern 
Europe]. So those staffs have been involved and already looking 
at what are the CONOPS, what are the processes and procedures.
    After Lisbon, the Secretary General has given direction 
that a number of committees look at this and be prepared to 
answer in some detail next spring such issues as CONOPS and 
command and control. So between that approach, of course, NATO 
and the United States have shared command and control for air 
defense for a great number of years. So we know how to do that, 
and we take that, and using the systems, as General O'Reilly 
mentioned, that have been built in conformance with NATO 
specifications, we believe we are very well positioned to 
integrate the U.S. PAA contribution to NATO into the NATO BMD 
capability.
    Thank you, sir.
    Mr. Langevin. Very good. I want to thank the witnesses for 
their answers to my questions. With that, I will now turn it 
over to the ranking member for his questions.
    Mr. Turner. Thank you, Mr. Chairman. In addition to 
recognizing your service before we go on, with this being the 
last hearing of the subcommittee, I want to recognize Bob 
DeGrasse and Kari Bingen for their leadership roles in the 
staff in this committee. I think in the subcommittee we have 
had a very bipartisan relationship. And I know that I can 
attest and I know, Mr. Chairman, that you would also, that both 
Bob and Kari have worked diligently to ensure that both the 
subject matter and the members approach issues from a 
bipartisan basis. So I appreciate both Kari and Bob's service 
and look forward to your dedication as we go into the 112th 
Congress.
    Gentlemen, almost all of you when you were giving your 
statements gave us some sense of the obvious criticism that I 
know you feel of the suspicion that there is a ``secret deal'' 
with Russia; that Russia might have veto power over our missile 
defense systems and that this Administration might agree to 
limitations on our missile defense. In fact, Dr. Miller, you 
state in your testimony on page 7, ``. . . the Administration 
has made clear to Russia and Allies that the United States will 
not agree to any limitations or constraints on U.S. ballistic 
missile defenses, and that the United States intends to 
continue improving and deploying BMD systems.''
    The problem, gentlemen, I think is that the Phased, 
Adaptive Approach, though, is borne out of a limitation and a 
constraint that has been placed on our missile defense system. 
By having scrapped the third site where the ground-based 
missiles were intended for Poland, including the radar that was 
included to Czech Republic, this Administration unilaterally 
put a constraint and limitation and proposed, then, the Phased, 
Adaptive Approach, which was not mutually exclusive to the 
third site. It includes systems that were concurrently being 
developed. And that is an issue, I think, that puts a light 
over the issue of the Administration's need to continue to say 
that they would not agree to limitations because they stepped 
forward initially with one.
    The second issue, I think, that causes each of you in your 
testimony to have to raise this issue is the fact of the 
statements that the Russians themselves are making. I have the 
Moscow Times report today about President Medvedev's state of 
the nation address where he is reported to have said he warned 
the West that if NATO doesn't reach a deal with Russia of the 
joint development of an anti-missile shield over Europe, a new 
arms race would start in the next decade and Russia would be 
forced to build up its offensive strategic forces.
    The Washington Post reports Putin having said that ``if the 
missile defense system excludes Russia and includes 
installations along Russia's borders, Moscow will see that as a 
threat and be forced to respond with an expansion and updating 
of its own weapons systems''--this at a time when the Senate is 
being called to take up the issue of the New START Treaty where 
you have the Russian leadership specifically singling out 
missile defense as a threat to their willingness to comply with 
the treaty that our Senate is now being asked to concur in.
    Which brings me to the issue, I think, that I would like 
you to deal with today, and that is the issue of since the 
third site was scrapped and the two-stage was preserved, 
according to the Ballistic Missile Defense Review, as a hedging 
strategy for homeland defense in case, one, the long-range 
threat comes earlier or, two, technical issues arise with the 
later models of the SM-3 interceptor, it brings me to a 
question of, well, how do we evaluate this hedge? At what point 
would the Department make a decision to employ the hedge? What 
criteria would be used? And what threat indications and warning 
would you need to see ahead to make such a decision to deploy 
that two-stage? How long would it take to deploy if the 
decision is made so? And the third one is, in light of the 
statements that we saw today from the leadership of Russia, 
does your hedge strategy, if it is needed to be deployed, 
already violate what the Russian leaders are saying would be 
their continued commitment to the New START treaty?
    Dr. Miller, your thoughts.
    Secretary Miller. Mr. Turner, if I can, let me start by 
taking exception, if I can, to your characterization of the 
Phased, Adaptive Approach as a ``limitation.'' Frankly, the 
conclusion of the missile defense review work that we did and 
the conclusion of people at multiple levels in the Department 
of Defense is that it was a better idea, a better approach that 
would provide more capability sooner for the threats we have 
today and a more important delta to the capability for the 
longer-range threats we may see in the future. And I will come 
back to that point when I talk about hedging.
    With respect to Russian statements, we can expect the 
Russian Federation to do what is in its national interest. We 
are, of course, committed to do what is in the United States' 
national interest. And the idea behind the ballistic missile 
defense cooperation is that in this area, because we both face 
threats from Iran and, potentially, other states, that there is 
room for cooperation and there is room for both of us to 
advance our interests and improve our security, and similarly 
for NATO and Russia through the NATO-Russia Council, that there 
is room for both to improve security.
    I will state, as well, that there is a long history of many 
in Russia wanting to slow down the U.S. missile defense 
program. I don't think that we could be any more clear about 
the fact that we will not accept that and we will go forward 
and continue to improve our capabilities, both qualitatively 
and quantitatively.
    With respect to the question of the hedge, I think it is 
useful to think in terms of timeframes. If a missile--if an 
ICBM threat from Iran were to arise prior to 2017, the two-
stage GBI is not going to be an effective hedge for that time 
window, from today to then, because that is about as quickly as 
we would expect that we could get it in place. And that is 
about when it would have been in place under the previous 
approach.
    So it is, I think, useful to remind ourselves that the 
first hedge--let me back up. The first objective of course is 
to prevent this from occurring in the first place. And that is 
what the sanctions with respect to the nuclear program are 
about, and what the pressure track is about, as well as our 
offers for diplomacy, should they go that way. But it is useful 
to remind ourselves that we currently have deployed 30 ground-
based interceptors and that these interceptors are intended--in 
fact, capable--of providing defense of the United States.
    The next hedge that is applicable before 2017 is that the 
Secretary of Defense last year made a decision to finish off 
Missile Field 2 at Fort Greely. And that means if we see an 
additional threat in terms of the quantity or the quality that 
could cause us to want to allocate more interceptors to a given 
re-entry vehicle if we thought it was a more sophisticated 
threat, those eight interceptors will be available, and those 
silos will be prepared.
    So within that timeframe, within the next seven years, that 
is what the hedge looks like. So the two-stage GBI really comes 
into play in the 2017 timeframe and later. And what we would 
look for is a combination of progress, if you can call it that, 
in the Iranian nuclear program and ICBM capabilities. And I 
think it is probably preferable not to go into details for 
indicators and warnings but I think it is fair to say that you 
look at not just the independent activities of those two but 
the efforts to make them and to provide a weaponized 
capability.
    You noted that some assessments have suggested that Iran 
could have a capability potentially as soon as 2015. I don't 
take exception to that. There is a tremendous amount of 
uncertainty about the timeline. But, as I said, the first thing 
that it is essential to remember is that we have capabilities 
in place and we are prepared to augment them in that timeframe 
with our ground-based interceptors. And the rest of the hedge 
will come in later.
    With respect to the technical hedge for the--if there are 
challenges with later versions of the SM-3, we will see those 
in the coming years and then have a decision to make--if that 
is indeed the case--the decision of whether to attempt to 
correct the program, to simplify the program, to accelerate the 
program, et cetera, versus to bring in another capability, will 
be at that point on the table.
    Mr. Turner. Before we go on, Dr. Miller, let me go back 
because there was a lot in that answer so let me try to break 
it down. The Ballistic Missile Defense Review states that the 
hedge for the two-stage is, in case one, the long-range threat 
comes earlier or, two, technical issues arise with later 
models. Now you don't disagree with that, right?
    Secretary Miller. That is right.
    Mr. Turner. So for this to be the policy and for this to be 
the policy that you agree with, it must mean that the hedge 
would be available prior to the Phased, Adaptive Approach being 
available because otherwise it wouldn't say earlier. Is that 
correct?
    Mr. Miller. Yes, sir. As you know, the Phase 4----
    Mr. Turner. Pause for a second. I just had to ask you this 
because you said the Phased, Adaptive Approach was going to be 
here sooner. And I just wanted to be clear because my 
understanding of the Ballistic Missile Defense Review was that 
the hedge was in case it was needed earlier than the Phased, 
Adaptive Approach would be available. And I just want to make 
certain you didn't disagree with the Ballistic Missile Defense 
Review, because that is what we have been operating on.
    Secretary Miller. I agree with the Ballistic Missile 
Defense Review and my comments about the Phased, Adaptive 
Approach providing capability earlier are with respect to the 
earlier phases of that Phased, Adaptive Approach.
    Mr. Turner. But not the portion that relates to protection 
for the United States homeland and the protection that the two-
stage would be providing.
    Secretary Miller. Specifically, the two-stage GBI is a 
hedge. One of its functions can be as a hedge against 
challenges with Phase 4, which is the Standard Missile-3 IIB, 
homeland, which is intended to provide another layer for the 
United States. It will also provide an additional capability 
for ascent-phase intercept for medium-range and intermediate-
range ballistic missiles as well.
    Mr. Turner. Good. Now in light of the comments--and I know 
you are well versed in all the issues of START and missile 
defense--in light of the comments that we are hearing from 
Russia, if you were in a position to deploy the hedge do you 
believe that their statements indicate that deployment of the 
hedge would be a violation of their perspective on START?
    Secretary Miller. Mr. Turner, I don't believe so. I have 
not seen a definitive statement in that regard. But I can say 
with some confidence that the answer to that would not affect 
the decision made, certainly, by this Administration, whether 
or not to go forward with the hedge. The statement that there 
will be no constraints or limitations on missile defense 
certainly applies to the hedge as well as to all other elements 
of our program.
    Mr. Turner. Walk me through, then, for just a moment as to 
the timeline of the hedge. If next week we were to a position 
where the hedge was to be pursued because the threat had either 
come earlier or that we are now aware of technical issues with 
the later models of the SM-3 interceptor that moved your 
timeframe back, what is the timeframe for the deployment of the 
hedge?
    Secretary Miller. For the two-stage ground-based 
interceptor, the soonest that we currently expect that we would 
be able to deploy in Europe would be in the ballpark of 2017. 
That is what the estimate--the estimate previously, at one 
point it looked possible to deploy earlier as we had delays in 
movement forward with the previous Administration's plans. That 
slipped from an initial goal of 2013 to a later goal of 2015. 
And ultimately, because of the requirement to conduct 
additional testing and then the delays, also, in ratification 
for the Poland and the Czech Republic, that slipped into, I 
would say, the 2016 to 2018 timeframe.
    Mr. Turner. Is that a rolling six to seven years then? You 
say 2017 now but, I mean, let's say it is three years from now 
and we are to have deployment. Are we still dealing with that 
type of delay?
    Secretary Miller. There are steps that we can take to 
shorten that timeline, and I think General O'Reilly can talk to 
that for a moment.
    General O'Reilly. Yes, sir, there is. Under the previous 
plan it was a six-year development of the missile field. The 
six-year development was triggered on successful testing of the 
two-stage GBI. We did a successful test, the first of three, in 
February of this year--I am sorry, June of this year. And then 
we will next year have our first intercept. And then we have 
another two-stage GBI test currently scheduled for 2016. 
However, a two-stage GBI is configured like a three-stage, and 
we confirmed its performance last summer, except the third 
stage is literally missing. I mean it literally is the same 
length and everything is a three-stage. So the two-stage GBI, 
we believe, you can accelerate the qualification and the 
certification and the other requirements that were previously 
put by Congress on the performance of the two-stage before you 
begin construction. We completed 35 percent of the design of 
the missile field. So we archived all of that information. And 
so if we had to execute, we could in fact reduce that six-year 
down to perhaps one or two years shorter than that. Again, our 
trigger is----
    Mr. Turner. From five to four years.
    Secretary Miller. Yes, sir. That wasn't our current plan 
that we had previously, but that is what you would do if you 
had to shorten the construction cycle. And we were relieved of 
the requirement of continuing several tests of the SM-3 or--I 
mean the two-stage GBI.
    Mr. Turner. And the reason--and I know you gentlemen are 
aware of the reason why I am asking the question, is to 
evaluate the viability of the hedge. I wanted your thoughts on 
will it be viewed as violating the Russian's view of START? Can 
it be delivered on time? If the threat is there that would 
cause you to turn to the hedge, can you really deliver the 
hedge in a timeframe where it would be effective?
    And it sounds like your time periods--six, five, four--that 
you can shorten it somewhat, but you still have a relatively 
long lead time for the hedge to provide that protection to the 
U.S. homeland.
    General O'Reilly. Sir, the next expansion of capability 
that we have is--and there will be several independent reviews 
that Congress has asked for and will receive. And they all 
indicate that the greatest capability that is needed, if there 
was a need for a hedge, is not specifically more interceptors. 
It is more capability to do discrimination and sensor 
management and so forth. And that aspect of the previous 
program we are actually accelerating over the EPAA--as I 
mentioned, the upgrades of the new radars. And we do have 
greater capability being developed on an accelerated level to 
help us with discrimination, which independent assessment 
indicates is where your greatest need would be. If you wanted 
additional firepower beyond adding eight missiles, which the 
timeframe for that is on the order of eight weeks to complete 
the population of the missile field, the next step would be to 
expand the number of refurbished missile field number one, 
which is about a two-year--it would take two years to do that. 
So we do have some intermediate steps which you could employ 
if, in fact, a hedge was necessary that could shorten going to 
a deployment in Europe of several years to build a new missile 
field.
    Mr. Turner. That just goes to the Ballistic Missile Defense 
Review, I mean is the document of course that states that this 
will be a hedge and the two criteria for the deployment of the 
hedge. And I am just trying to evaluate, do you see a scenario 
in which that hedge would be deployed; would it be there 
timely, would it be viewed as a violation from the Russians? So 
maybe I need to ask that in a different way, Dr. Miller. I 
mean, do you see a scenario in which the hedge would be 
deployed?
    Secretary Miller. Sir, I think that that scenario is quite 
unlikely and I think it is----
    Mr. Turner. So do you not see a scenario in which----
    Secretary Miller. No, sir, I think it is unlikely. And I 
think it is unlikely for the following reason. And that is that 
we have a good program in place for Phased, Adaptive Approach. 
We have the capabilities coming into place that will allow 
testing in the next several years and will allow us to get a 
good sense of the SM-3 IIB and the technical risk there. If we 
discover at that point that the test history and the modeling 
that has led to the parameters of the system are incorrect and 
can't be rapidly adjusted, then we have a decision--and General 
O'Reilly may want to talk about the timeline--in that timeframe 
to go for the hedge. I think we have done, and MDA and our 
teams have done, the analysis deeply enough that that technical 
hedge is unlikely to be necessary.
    With respect to the hedge for--but we are talking about 
obviously the protection of the United States, so that is why 
we, despite a low probability--there is a low probability, we 
hope, of an attack in the first place--but this is why it is 
still valuable to do this hedge.
    With respect to the hedging against an earlier arrival of 
the threat, as I said, I think you have to think about that in 
a different sort of layer, and that is that if it comes very 
quickly there is not going to be time to deploy a two-stage, 
even when compressed, and then the addition of GBIs at Fort 
Greely, is going to be a sensible thing to do.
    Mr. Turner. Dr. Miller, I really was not asking you a 
probability question. I mean I understand that I am certainly 
with you on the issue of let's certainly hope and have an 
expectation that the probability of any of these circumstances 
would be very low. However, the Administration in the Ballistic 
Missile Defense Review did establish this as a hedge. And so I 
want to make certain that this language is not meaningless. 
And, therefore, my question to you of do you see any scenario 
where the hedge is deployed----
    Secretary Miller. I will give you a shorter answer, sir. 
Yes, the scenario would be either when there is a technical 
problem with the SM-3 IIB that we don't see solving quickly. 
And that would be something that we will have insight in the 
next few years. And then if we see an Iranian capability for 
ICBM nuclear capability and its integration arising, then we 
will need to look hard at that hedge and whether, depending on 
what occurs, whether to try to accelerate the SM-3 IIB and/or 
to look to deploy a two-stage ground-based interceptor.
    Mr. Turner. Thank you. The whole concept of a hedge, by the 
way, is this issue that we are all struggling with, which is a 
gap where the threat emerges or arrives prior to the capability 
being deployed. The concern with the Phased, Adaptive Approach 
and the number that you had indicated of the ICBM threat of 
perhaps being 2015 when we know the Phase Adaptive Approach 
doesn't provide a response to that threat until 2020 provides 
us a five-year gap of which we have a concern, but as our whole 
discussion with respect to the hedge and other issues of 
technical capability goes to, the emergence of that threat and 
the acceleration of our facing that threat posing, then, a 
wider gap between technical capability and present threat. 
Which takes me to the next portion of my questioning.
    When the White House announced the PAA last September, it 
said the new approach was based upon an assumption that the 
long-range missile threat was ``slower to develop.'' Recent 
reports indicate that Iran perhaps has 19 BM-25 advanced 
ballistic missiles that it acquired from North Korea in its 
arsenal that are capable of reaching Berlin and Moscow. Now, in 
all the hearings that we have had and all the discussions that 
we have had about the capability of Iran, the discussion of--
the issue of the possibility of their acquiring this capability 
instead of just merely developing it has always been raised as 
an accelerator.
    When is the Phased, Adaptive Approach expected to provide 
coverage to Berlin? If the threat to Berlin, other Western and 
Central European population centers exists today, according to 
these reports, and the Phased, Adaptive Approach won't cover 
these areas until 2018 at the earliest, then there would appear 
to be a present gap in the defensive coverage of Europe. What 
options are available to accelerate coverage of Europe; what 
appear to be very near-term threats; and any other thoughts 
that you would like to provide us on the issue of these 
reports?
    Secretary Miller. Mr. Turner, I don't want to speak to 
intelligence assessments in open session either to confirm or 
deny the accuracy of the information that you have put out.
    Mr. Turner. Well, it is information that is being reported. 
This is out in the public. This is not something that is in a 
classified discussion that we are having. What I have asked you 
is this is what is being reported; your thoughts, and how does 
that relate to the issue of a possible gap that we might have?
    Secretary Miller. One of the advantages of the Phased, 
Adaptive Approach is that it is adaptive, and that if we see 
something coming earlier, we have the possibility to accelerate 
first by moving Aegis-capable ships with SM-3 interceptors and 
as the later interceptors come online, to be able to put them 
in additional locations as well.
    General O'Reilly. Sir, and if I may, without referring to, 
again, commenting on sensitive intel information, if you just 
looked at the distance of what you have said in your question 
between Berlin and Iran and other locations in the Middle East, 
if you take that distance, next spring we are actually 
intercepting a target of that range with our Phase 1 
capability. Again, we have said we took a very conservative 
approach to developing the EPAA. But just to use the type of 
distances you are referring to, which is in the range of an 
intermediate-range ballistic missile, we said we would deploy 
in Phase 1, in my testimony, intermediate-range ballistic 
missile range, which is the range you are talking about to 
Berlin. And that will be Phase 1 capability. And we are testing 
live fire tests next spring against that range.
    Mr. Turner. Mr. Rose, you indicated that there were no 
secret talks ongoing, which we are all very glad to hear, of 
course. But press reports do continue to surface that Under 
Secretary of State Tauscher and her Russian counterpart are 
negotiating a missile defense agreement. Also, we are told that 
Secretary Tauscher signed out a Circular 175 memo last May for 
a missile defense agreement with Russia. According to the State 
Department's Web site, a Circular 175 refers to regulations 
developed by the State Department to ensure the proper exercise 
of the treaty-making power and seeks to confirm that the making 
of treaties and other international agreements by the United 
States is carried out within constitutional and other legal 
limitations.
    What is the exact nature and scope of the missile defense 
negotiations that are going on with Russia, and would you 
please tell us the contents of the Circular 175?
    Secretary Rose. Certainly. Thank you very much, Mr. Turner. 
Let me start by saying that our discussions are focused 
strictly on cooperation. We are not discussing limiting our 
missile defenses in any way. Now, in order to facilitate 
cooperation, sir, you need to have an agreement in place to 
exchange information. Back in 2004 the Bush administration 
began negotiating with Russia a Defense Technical Cooperation 
Agreement. What this agreement was, was a broad framework that 
allowed the two ministries of defense to exchange information 
not just on missile defense, but a variety of issues.
    The last DTCA, as we call it, negotiations with Russia were 
held in 2008. Now, earlier this year this Administration 
decided to propose a more limited form of the DTCA which would 
only address missile defense issues, the Ballistic Missile 
Defense Cooperation Agreement. Basically, what the BMDCA was, 
was very simply a framework agreement which established a 
cooperation working group and it basically was a framework in 
which you could stick individual projects under that.
    For the record, we specifically included language in the 
agreement that said, ``This agreement shall not constrain or 
limit parties' respective BMD plans or capabilities 
numerically, qualitatively, operationally, geographically, or 
in any other way.'' Now, we made this proposal to the Russian 
Government last spring and they said that they were not 
interested in negotiating a Ballistic Missile Defense 
Cooperation Agreement at that time. What we understand, and I 
will defer to Dr. Miller, is recently the Russian MOD [Ministry 
of Defense] has indicated an interest in restarting the 
negotiations on the broader DTCA.
    Sir, with your question about what Circular 175 authority 
is, it basically is a relatively routine matter in the State 
Department to ensure that when there is any international 
agreement, whether it be a supplemental SOFA, R&D [research and 
development] agreement, that there is adequate coordination 
across the interagency and that U.S. foreign policy objectives 
are fully--it is aligned with overall U.S. foreign policy 
objectives. So let me defer to Dr. Miller if he wants to add 
anything on the DTCA and the future of that.
    Secretary Miller. Mr. Rose is correct that it appears there 
is now at least a possible interest to have discussions to move 
toward a DTCA, Defense Technology Cooperation Agreement. What 
the scope of that will be is to be determined. The idea is to 
be able to have an umbrella agreement that then allows us to 
discuss possible technical cooperation in a number of different 
areas.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Langevin. I thank the gentleman. We are now operating 
under the five-minute rule, and the chair now recognizes Mr. 
Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. I got here just 
in time to be here under the five-minute rule.
    Gentlemen, I appreciate very much your being here. As 
happens quite often, Mr. Turner has stolen all of my questions. 
I will do a little variation here.
    General O'Reilly, you know, I know that you have had to 
deal with a lot of questions about the Phased, Adaptive 
Approach, and I want you to know that there is certainly no 
adversarial perspective in my mind at all, because I think you 
are doing a magnificent job and I think we are blessed to have 
you where you are in this country, and I am personally very 
grateful for that.
    That said, there is a lot of discussion about the PAA being 
suggested or touted as capable of providing a greater coverage 
sooner to all of our European allies compared to other missile 
defense plans, and I will just try to make that a general 
comment. But the previous approach of utilizing interceptors in 
Poland and radar in the Czech Republic was forecast at the time 
to provide about 75 percent coverage of our European allies 
against longer-range missiles by 2013, with the remaining 25 
percent of southeastern Europe covered with U.S. and NATO 
shorter-range missile defense systems.
    Given the timeframe of PAA, do you think that it will live 
up to the expectation of having greater coverage sooner, 
especially given the reality, it seems, that the Phased, 
Adaptive Approach has developed a little slower than we 
thought, and we and our allies are already, in my mind, 
perilously vulnerable to a ballistic missile threat given 
especially with Iran having new missile capability brought in 
from North Korea.
    Was there enough of a question there for you to pull out an 
answer?
    General O'Reilly. Yes, sir, except for the comment that the 
Phased, Adaptive Approach, sir, was slower than----
    Mr. Franks. Do you believe that the Phased, Adaptive 
Approach is developing as quickly as you anticipated?
    General O'Reilly. Yes, sir. We are in track for Phase 1, 
which will be next December. By then, we will have all of the 
capabilities that we have described delivered. And each one of 
those milestones are, in fact, the final date for the last 
delivery of a capability. But we are going to be delivering 
capability as it comes on board.
    For example, the fire control system for the next Aegis 
ship that is a Phase 2 capability, the Navy will be certifying 
that operationally next summer. So we will be three years ahead 
in that regard. So, again, we were very prudent and 
conservative when we laid out this, but we are delivering 
capability as soon as we can and we are testing it in an 
integrated fashion. For example, as I said, we are testing 
against an IRBM next spring with the Phase 1 capability.
    So, sir, I do believe we are on line to have a significant 
amount of schedule margin so that if we do have problems in 
development--and they do occur--but we have taken that into 
account historically, and we will--we have a very high 
confidence level to meet these milestones for all four of them.
    Mr. Franks. And it remains your perspective that we will 
have greater coverage sooner with PAA than we did with the 
European site.
    General O'Reilly. Yes, sir. With the European site, the 
coverage was limited by the time of flight of a GBI. The 
missiles we are talking about now fly significantly shorter in 
time and, therefore, they can engage earlier. That is why we 
have a site in Romania that has been chosen, and a third site, 
it was in Poland, which is significantly further back. So from 
that vantage point, we do have a significant amount of 
coverage.
    Sir, and I respect your question on coverage, but I will 
say a major factor in our assessments was raid size. And having 
10 missiles and deciding you needed more, it would take several 
years to expand a missile field, where in this capability you 
can expand it in weeks to additional sets of missiles.
    Mr. Franks. The last question--well, kind of a two-part 
question. The BM-25s from North Korea in Iran, do you think 
that those present any new issues that Phased, Adaptive 
Approach should take into consideration? And, secondly, if 
there is any area of coverage and reach, given the shorter arm 
of SM-3s, are there any areas that you feel like should be of 
special consideration to the committee or to the MDA?
    General O'Reilly. Sir, again, I cannot comment on 
intelligence-type information in this forum, but as I said in 
my testimony, we will have intermediate range and demonstrated 
intermediate-range ballistic missile capability next spring, 
before we deploy. And we have already shown we have very 
robust, 10 intercepts with the Aegis system of short-range 
missiles, and we have had seven out of seven intercepts with 
the THAAD system.
    Mr. Franks. Well, seven out of seven is close enough.
    Thank you, sir. Thank you, Mr. Chairman.
    Mr. Langevin. I thank the gentleman.
    We will now go to round two, and I have only one question, 
and General O'Reilly is the lucky winner of the question.
    Getting to costs, again, and contracting, General, first of 
all again, I do want to thank you for your testimony here today 
as well as your ongoing engagement with this committee's 
efforts in pursuing information on missile defense efforts, and 
your overall effort has been stellar, an outstanding and a 
great service to the country.
    While the PAA is designed to move current technology into 
defense of Europe as soon as possible, there are clearly large 
technical developments required to achieve a lot of phases of 
the strategy. As we have seen with previous efforts for our 
domestic architecture, these large systems are initially bid 
through open competition, but it seems that once the initial 
contract is done, there are many years of sole-source follow-on 
contracts to provide support to these systems. This can 
obviously drive up long-term costs of large defense systems 
because it limits competition in later phases of the contract.
    So, General, my question to you is how does MDA plan to 
reach these aggressive development goals while keeping costs 
low? Is there any thought about working more with industry to 
better leverage the research and development efforts already in 
development at small- and medium-size businesses in terms of 
upgrades and support?
    General O'Reilly. Yes, sir, there is. First of all, in our 
advance research area, we have over 340 contracts that are with 
small businesses and universities today, and they are focused 
on the technologies we need for the later stages of the Phased, 
Adaptive Approach, and I am constantly engaged with small 
business.
    Second, in our larger contracts. I have required that they 
submit a plan of how they are going to utilize small business, 
and we have made it award fee criteria that we evaluate the 
large businesses on how they comply with the plans they 
proposed at the time of award.
    We are also going through a very large series of 
competitions, and some of these competitions are programs that 
have not had competition in over a decade. For example, the 
ground-based mid-course defense contract is up for competition.
    We make our decisions on to compete or not, not on the 
aggressiveness of the schedule, but on evaluating and surveys 
and input from industry, to see if there is more than one 
source out there that is a viable source. And we have had great 
cooperation from industry, and in some cases some of our 
proposals have had over 10 industry teams indicate they are 
willing to propose. That is what we use for our criteria.
    In the case of the Aegis Ashore, we have extended the 
current Lockheed contract because they are the ones that 
developed the Aegis system to begin with. But we have also 
notified that after the initial deployments of taking the Aegis 
system on a ship and building it as close as possible to the 
one on land so that sailors don't have to go through retraining 
or anything when they are using--or the logistics system--after 
we do the initial deployments, we will compete that also.
    So, sir, there is no contract in MDA which we have 
designated will not be competed in the future.
    Mr. Langevin. Good. I appreciate your answer. I have to say 
that that is encouraging to hear. It has been kind of a pet 
peeve of mine that we have these big legacy systems, and I have 
heard this from numerous small- and medium-size businesses, 
that they find it frustrating to be able to offer a product 
that might be much more effective at a lower cost, because 
there is just so much up-front investment that the big 
companies have made and so much investment that it makes sense 
for them to want to stick to the current technology and not do 
the upgrades. Again, small businesses have been frustrated and 
shut out in a lot of ways.
    But I am encouraged by your answer, and I hope that 
continues to be the case. Getting a better product, especially 
as technology improves so rapidly, and being able to get it at 
a lower cost, would benefit not only capabilities, but also the 
taxpayer.
    With that, my questions are completed. I will turn to the 
ranking member for round two.
    Mr. Turner. Thank you, Mr. Chairman. I have just got two 
things I would like to ask.
    General O'Reilly, I would like to go back to your response 
on the issue of the emerging threat from Iran, the evolving 
threat from Iran. Our discussion, and, again, our concern here 
is to try to find where the gaps are and how we are going to be 
able to respond to those gaps.
    The Phased, Adaptive Approach, viewed in the light of the 
scrapping of the third site is an approach that is in a race 
against emerging threats. The information that we had had about 
the Phased, Adaptive Approach, just conferring with staff, was 
that if the scenario is Iran and Berlin, that it is coverage 
that is not available until 2018. You indicated in Phase 1 you 
will have some intermediate-range ballistic missile 
effectiveness.
    If you could confer with our staff and provide us the 
information on that, because it is different than what our 
understanding is of your phases. We hope, of course, that every 
time that there is a gap that is identified, that your system 
is, as you all have described it, evolving and responsive so 
that we can respond to those gaps. So if you would please 
provide that information, I would appreciate it.
    The second thing goes again to the comparative of the 
Phased, Adaptive Approach into the system that was scrapped. 
The third site, and including the radar that was intended for 
Poland and the Czech Republic, would have provided coverage for 
the homeland of the United States and also provided coverage, 
as Mr. Franks was saying, for 75 percent of Europe. But there 
was coverage that was provided to homeland United States.
    In looking at the Phased, Adaptive Approach, as you all 
have acknowledged, Phase 4 is where coverage to the United 
States comes in, and that is the 2020 timeframe. The prior 
phases, 1, 2 and 3, are fairly focused on protecting Europe, 
and yet the United States is fully funding the Phased, Adaptive 
Approach, as near as I understand it and as I think our 
committee understands it.
    With that shift of shared benefit arises the question of 
shared contribution. I know we certainly are all very excited 
of NATO's interest in NATO-izing a missile defense shield, but 
what is the current Administration's approach to contributions 
from NATO Allies for the Phased, Adaptive Approach?
    Secretary Miller. Mr. Turner, as you know, we view the 
European Phased, Adaptive Approach as a U.S. contribution to 
missile defense for NATO. We have a vested and a very strong 
vested interest in that because, as you also know, we have more 
than 100,000 troops there and we have, of course, additional 
Americans there as well. So there is something very directly, 
from an American perspective, involved in being able to defend 
in Europe. We also, as you know, conduct operations and move 
our forces through Europe and the European Command's area of 
responsibility as well.
    Now, with respect to shared resources, each of the 
countries in NATO that wish to contribute at the lower tier, or 
if they contribute to an upper tier, will obviously fund that 
themselves. And we have the shared NATO resources into it, 
which each nation contributes for the Active Layered Theatre 
Ballistic Missile Defence Programme, which is the command and 
control elements, that both will make the Phased, Adaptive 
Approach plug in to the lower-tier systems and allow the lower-
tier systems and any other upper-tier systems that are provided 
in the future to be able to work more effectively together.
    So you have got national contributions, including from the 
United States; you have got the NATO contributions for ALTBMD 
[Active Layered Theatre Ballistic Missile Defence Programme] 
and the work involved in integrating those systems; and then 
you have got the countries that have Patriot and other systems 
in Europe that will then tie into that and then fund those 
capabilities.
    Secretary Rose. Mr. Turner, I also think it is important 
that we note the important contributions of land and territory 
that Romania and Poland are providing to the PAA, to the 
defense of the United States as well as to the defense of the 
Alliance as a whole.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Langevin. I thank the ranking member.
    Mr. Franks is now recognized for five minutes.
    Mr. Franks. Thank you, Mr. Chairman.
    I guess to couch the question in a way, General O'Reilly, 
that will not create a need for you to touch on anything 
sensitive, I think Mr. Turner's phrase was it is a race, and 
certainly that seems to be the case. So I have two questions.
    Given potential vulnerabilities that we have, what areas of 
the Phased, Adaptive Approach, the knowledge points, or what 
areas, the milestones, would you like to see accelerated, given 
the potential threats that are emerging?
    General O'Reilly. Sir, I do agree it is a race. The race, 
though--my perspective is, is not with the ICBM. The ICBM 
threat--again, we have 30 missiles. Even if you shot four 
against any one missile, 30 interceptors, even if you shot four 
interceptors, you would need more than seven simultaneously 
launched ICBMs in order to overcome our current system. So we 
believe that is a great capability, and as I alluded to, we are 
in fact upgrading the sensors and other parts of the system to 
make those 30 interceptors much more capable. So that is for 
homeland defense.
    However, if you do not count the United States, Russia, 
China, or any of the European countries, there are still over 
6,000 missiles out there, and that is where our capability is 
needed greatest. We have over--we are approaching about 1,000 
Patriots, and we are increasing rapidly the number of Aegis 
against short-range ballistic missiles but that, by far, is 
where we are outpaced and outnumbered, and that is where our 
focus is on accelerating that early capability--this and Phase 
2, from a global point of view.
    I would defer to Admiral Macy to elaborate on that.
    Admiral Macy. Really, the only thing to add is to refer 
back a little bit, sir--I don't think you had a chance to join 
us----
    Mr. Franks. And I apologize for that.
    Admiral Macy. No, sir, please, I wasn't going there. Along 
with the JCM-3 study that we are doing to look at the number of 
interceptors and sensors and launch capabilities we need, we 
have a parallel planning going on within the Joint Staff and 
the COCOMs on how to fight in these areas. And we are looking 
at, okay, we are currently outgunned in the interceptors versus 
threat missiles. We expect that will, frankly, continue. So the 
question is how do you most effectively fight, how do you fight 
in such a way that you bring other elements of national power 
into the fight to end the fight as soon as you can do it? But 
certainly in the near term, I don't think it is going to be a 
great flash of brilliance to anyone on this committee that 
additional sensors and additional interceptors are going to be 
requisite.
    What we can't answer to you right now is sort of, what is 
the upper end, what is the total cost? And we hope, once we get 
through these studies that I promised the chairman, I would 
look forward to coming back in the April timeframe to discuss 
with you, it will start to give us that answer. But in the near 
term, certainly, interceptors and sensors is the key, and every 
one of the combatant commanders is screaming for more.
    Mr. Frank. General O'Reilly, let me take off of a comment 
that you made related to ICBMs. Obviously we are hoping that 
Iran is not going to be in a position to have ICBMs any time in 
the next few days. But given that concern, with the SM-3 
capability and given that SM-3 at least at this point is sea-
based, when do you anticipate an ability to intercept ICBMs 
coming to America from Iran?
    I realize that is pretty fundamental. But when do you 
anticipate that? I know there is no way to anticipate when they 
will have them. But when would you anticipate being able to, if 
it is just one--I know the raid issue is always a second 
question--but if it is just one ICBM coming from Tehran to New 
York, when we would be able to, with high likelihood, be able 
to intercept that? I know that is still a redundant coverage, 
but when we would be able to gain that redundant coverage?
    General O'Reilly. Sir, due to the number of interceptors 
which we have, the probability will be well over in the high 
nineties today of the GMD system being able to intercept that 
today. Again, our calculations along the same line say the 
number would have to be greater than seven, simultaneously 
launched, to start lowering that. And that is today.
    Mr. Franks. I am aware of that. But that is our GMD here.
    General O'Reilly. For the SM-3, I believe your question was 
for the SM-3 IIB.
    Mr. Franks. I am talking about redundant coverage in 
Europe.
    General O'Reilly. Yes, sir. For the SM-3 IIB, our plans 
that--we, again, are in a competition to have companies come in 
and propose--but using historical plans, our first flight 
testing will be in 2016, and that is a significant indicator of 
the integration of the missile and its performance and how it 
performs with the Aegis system.
    Unlike other missile systems, the Aegis system is already 
our backbone. So we can focus on just the missile development 
and, way before that, our ground systems and ground testing. 
But the first flight testing would be 2016.
    Mr. Franks. So potentially as early as 2017, 2018, we would 
have redundant protection over and above our GMD on shore--or I 
should say at Vandenberg and Fort Greely--we would have 
redundant protection from a potential ICBM coming from Iran as 
early as 2018?
    General O'Reilly. Sir, during that period of time, during 
2017, 2018, 2019, that is when we have our prototype missiles 
that we are testing. The actual production missiles, the plan 
is for 2020. That gives us four years of flight testing besides 
all of the ground testing.
    Mr. Franks. Thank you, sir, and thank you, Mr. Chairman.
    Secretary Miller. Mr. Franks, Mr. Chairman, might I say 
something very briefly?
    Mr. Franks, when you talk about redundant capability, I 
think it is important to understand that the two-stage GBI is 
still a GBI. So if you have a problem such that the three-stage 
ground-based interceptors at Fort Greely and Vandenberg don't 
work--and that is one of the reasons you are thinking about an 
independent capability--there is a high probability that that 
same problem would apply to the two-stage GBI. That is one of 
the big reasons why we see so much value in a different 
approach with the SM-3 IIB, because it has different 
phenomenology, a different set of capabilities.
    You can compensate for not having a two-stage GBI by 
launching more three-stage GBIs from the United States, and in 
any event, you are down to very small probability differences 
associated with intercept; because as General O'Reilly said, 
you start with a high level with the ground-based interceptors 
that we already have deployed.
    Mr. Franks. Well, Mr. Chairman, I won't respond, but I hear 
what you are saying. It is not exactly the direction I was 
going, because I am grateful that we don't have that problem 
right in front of us. But one of my concerns here for a number 
of years, actually, has been the calculus that Iran makes in 
moving forward with nuclear capabilities, missile capabilities, 
on a number of different fronts.
    To the degree that we can convince them that any effort on 
their part strategically, and certainly tactically, would be 
less than optimal for them, I think that is important because 
it may, added to some of the other pressures that they are 
dealing with, threats from Israel, threats from--probably not 
us, unfortunately, but threats from Israel--you just wonder 
what it will take to dissuade them. It is almost as much 
psychology as it is military strategy and science. But I know 
you guys are doing your best and I am grateful you are on the 
job. Thank you.
    Mr. Langevin. I thank the gentleman. With that, this 
hearing is drawing to a close. I want to thank our witnesses 
for your testimony today. Most especially I want to thank you 
all for your service to our Nation, particularly on this 
extraordinarily difficult and complicated issue.
    Obviously, the potential threats to the Nation are great. 
You bear heavy weights of responsibility in making sure that we 
have the most robust missile defense system in place. I can see 
that we are making steady progress, although it is very 
challenging, and we thank you for the work that you are doing. 
This committee stands to continue to work in partnership with 
you, and, again, I thank you for your great work.
    With that, I want to say what a privilege it has been to 
chair the subcommittee over the last two years. I had very big 
shoes to fill, and I still am trying to live up to the high 
standard that Secretary Tauscher has set for the subcommittee, 
and we thank her for her work.
    Let me say what a privilege it has been to work with Bob 
DeGrasse and Kari Bingen as well, and the rest of the Armed 
Services Committee staff. They are real stars on the Armed 
Services Committee staff, and have put in countless hours to 
make our job easier and to make sure that this committee is 
providing effective oversight. We are grateful to both of you 
for your service to the subcommittee.
    Let me also say what a privilege again it has been to serve 
with the ranking member, Mr. Turner. He and I have had a strong 
partnership on this issue, these issues as well, and I 
appreciated his invaluable input.
    Mr. Franks. Mr. Chairman, could I just add, sometimes you 
are thanking everyone else, but in an adversarial political 
environment, sometimes it is important to say things that are 
true and real. And I will tell you it has been hard to tell you 
were a Democrat on this committee, because you have simply done 
what you believed to be right for the country.
    Mr. Langevin. You were doing so well up to that point.
    Mr. Franks. But I just want you to know, I don't know how 
we could have had a more reasonable, more affable, more 
dedicated chairman to try to do what was right for the country, 
and you certainly have my respect. I didn't vote for you, but I 
wish you everything good in the world, and you certainly have 
been wonderful to work with.
    Mr. Langevin. Well, I thank the gentleman for his comments, 
and I take the comments in the spirit with which they were 
intended.
    With that, again, thank you to our witnesses, and keep up 
the great work. Members may have additional questions that they 
will submit to you, and you are asked to respond expeditiously 
in writing.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 5:21 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                            December 1, 2010
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 1, 2010

=======================================================================





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            December 1, 2010

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. The Congress has been deeply concerned with the 
proliferation of cruise missile technology and its impact on U.S. 
deployed forces. On June 16, 2010, Secretary of Defense Gates testified 
before Congress that he was concerned with the ``. . . extraordinary 
Chinese deployment of all manner of cruise and ballistic missiles.'' 
How does the Administration plan to address the threats of cruise 
missiles and unmanned air systems to the land-based components of the 
PAA that are focused on intercepting SRBM, MRBM and SRBM?
    Dr. Miller. The Department considers cruise missiles (CMs) and 
unmanned aircraft systems (UAS) as part of the larger air-breathing 
threat set (as opposed to the ballistic missile threat), which also 
includes manned fighters and bombers. The defensive systems we have 
developed (e.g., F-22, Patriot, Aegis ships, E-3), and are developing 
or improving (e.g., F-35, advanced fighter radars, SM-6) will be 
capable of addressing the CM and UAS threats. Additionally, some of the 
systems that perform ballistic missile defense (BMD) also have an 
inherent capability to defend against CMs, UAS, and other air-breathing 
threats. Combatant Commander defensive plans account for the full 
spectrum of air and missile threats, and allocate air defense assets 
and capabilities to provide comprehensive coverage of all critical 
assets including BMD elements.
    Mr. Langevin. The Congress has been deeply concerned with the 
proliferation of cruise missile technology and its impact on U.S. 
deployed forces. On June 16, 2010, Secretary of Defense Gates testified 
before Congress that he was concerned with the ``. . . extraordinary 
Chinese deployment of all manner of cruise and ballistic missiles.'' 
How does the Administration plan to address the threats of cruise 
missiles and unmanned air systems to the land-based components of the 
PAA that are focused on intercepting SRBM, MRBM and SRBM?
    General O'Reilly. MDA's mission does not include air-breathing 
threats. However, MDA works closely with the Services and the Joint 
Staff to ensure their systems are integrated with the Ballistic Missile 
Defense System to the greatest extent possible.
    Service capabilities that are or will be capable of addressing air-
breathing threats include systems that are currently fielded (e.g. F-
22, Patriot, Aegis ships, and E-3) and systems in development (e.g. F-
35, advanced fighter radars, and SM-6). Combatant Commander defensive 
plans account for the full spectrum of air and missile threats, and 
allocate air defense assets and capabilities to provide comprehensive 
coverage of all critical assets including BMD elements. The Department 
is confident that the air defense systems being fielded are capable of 
preventing these threats from having a significant impact on our 
ballistic missile defense capability.
    Mr. Langevin. The Congress has been deeply concerned with the 
proliferation of cruise missile technology and its impact on U.S. 
deployed forces. On June 16, 2010, Secretary of Defense Gates testified 
before Congress that he was concerned with the ``. . . extraordinary 
Chinese deployment of all manner of cruise and ballistic missiles.'' 
How does the Administration plan to address the threats of cruise 
missiles and unmanned air systems to the land-based components of the 
PAA that are focused on intercepting SRBM, MRBM and SRBM?
    Admiral Macy. The Department considers cruise missiles (CMs) and 
unmanned aircraft systems (UAS) as part of the larger breathing threat 
set (as opposed to the ballistic missile threat), which also includes 
manned fighters and bombers. The defensive systems we have developed 
(e.g., F-22, Patriot, Aegis ships, E-3), and are developing or 
improving (e.g., F-35, advanced fighter radars, SM-6) will be capable 
of addressing the CM and UAS threats. Additionally, some of the systems 
that perform ballistic missile defense (BMD) also have an inherent 
capability to defend against CMs, UAS, and other breathing threats. 
Combatant Commander defensive plans account for the full spectrum of 
air and missile threats, and allocate air defense assets and 
capabilities to provide comprehensive coverage of all critical assets 
including BMD elements. The Department is confident that the air 
defense systems that are being fielded will be capable of preventing 
these threats from having a significant impact on our ballistic missile 
defense capability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. We understand that the Missile Defense Agency conducted 
a summer study (in 2010) on the hedging strategy. Can you provide the 
committee with the study results and any other detailed contingency or 
hedge plans?
    Dr. Miller. The Missile Defense Agency (MDA) along with the support 
of Joint Staff, Combatant Commanders and Federally Funded Research and 
Development Centers, conducted and provided the summer study results to 
the Missile Defense Executive Board. The Department can provide, at the 
classified level, a summary of the results, as well as further hedge 
planning to the Committee.
    Mr. Turner. You've stated that the U.S. homeland is currently 
protected against a threat of limited ICBM attack by 30 ground-based 
interceptors located at Fort Greely, Alaska, and Vandenberg, 
California. Discuss why it was then necessary to provide further 
coverage of the United States homeland in Phase 4 of the European 
Phased, Adaptive Approach? What needs/requirements are Phase 4 
capabilities expected to satisfy?
    Dr. Miller. Phase 4 of the European Phased, Adaptive Approach 
(EPAA) provides defense in depth. The ability to put up more than one 
layer of defensive capability increases the likelihood of success. The 
SM-3 IIB interceptor, to be deployed in Phase 4 of the EPAA, will be 
the first layer of our homeland defense system, with Ground-based 
Midcourse Defense (GMD) providing the second layer. Having another 
layer enhances the overall probability of intercepting intercontinental 
ballistic missiles (ICBMs). The SM-3 IIB provides a backup if for some 
reason there is a development or performance issue with the Ground-
Based Interceptors (GBIs), or a temporary outage or failure with the 
Ground-based Mid-course Defense system. The SM-3 IIB design and key 
components are different from that of the GBIs, which provides 
additional assurance that the overall U.S. defensive system will be 
able to defend the United States.
    Mr. Turner. We appear to be seeing troubling new developments in 
both North Korea and Iran's longer-range missile programs. Are you more 
concerned today than last year about the threat of Iran and North Korea 
developing and deploying an IRBM or ICBM? Do these threat developments 
change your approach in any way?
    Dr. Miller. The European Phased, Adaptive Approach (EPAA) includes 
visible actions beginning in Phase 1, including the deployment of a 
BMD-capable Aegis ship to the Mediterranean and a forward-deployed AN-
TPY2 radar in Southeastern Europe in 2011. The basing of land-based 
interceptor sites in Romania (by 2015 and Poland (by 2018) provides a 
more permanent and substantial posture; the signing and ratification of 
the agreements to support those bases demonstrates a commitment to 
missile defense that is visible to both our allies and potential 
adversaries.
    Mr. Turner. A former OSD Policy official testified before this 
committee in March 2007 that, ``The advantage of mobility is 
flexibility . . . But there is also an important advantage to ground-
based silos. That advantage is permanence . . . Both our allies and 
potential adversaries will know with certainty that a missile defense 
capability is in place. These missile defense assets then will be able 
to both assure allies and deter and dissuade adversaries at all times 
once they are fielded.'' Do you believe a permanent force presence 
matters in the assurance of our allies? How does the U.S. provide that 
same assurance to allies and deterrence to potential adversaries with 
the European Phased, Adaptive Approach, especially since it relies on 
all mobile systems in the near- and mid-term that may not be available 
to deploy to Europe if allocated to other theaters?
    Dr. Miller. The European Phased, Adaptive Approach (EPAA) includes 
visible actions beginning in Phase 1, including the deployment of a 
BMD-capable Aegis ship to the Mediterranean and a forward-deployed AN-
TPY2 radar in Southeastern Europe. In addition to these actions, NATO 
decided to develop a missile defense capability to protect all NATO 
European populations, territory and forces at the recent Lisbon Summit. 
As the United States makes the EPAA its contribution to this NATO 
effort, our Allies will know what the United States has committed to 
the collective defense of the Alliance and will have a say in 
operational planning. Finally, the basing commitments for the land-
based interceptors sites from Poland and Romania, along with the 
signing and ratification of the agreements to support those bases, 
demonstrates a commitment to missile defense that is visible to both 
our allies and potential adversaries.
    Mr. Turner. Dr. Miller, you credited the Bush Administration with 
pursuing missile defense cooperation with Russia. Yet the Obama 
Administration has criticized its predecessors for lack of such 
cooperation. What is this Administration offering to Russia that you 
believe could lead to Moscow's participation despite criticism from its 
government officials of the European Phased, Adaptive Approach and 
threats of an ``arms race'' if the U.S. improves its missile defenses?
    Dr. Miller. The Obama Administration believes that missile defense 
cooperation with Russia is in the national security interests of the 
United States, as did the Bush Administration. We believe that our 
ongoing efforts to work collaboratively with Russia in areas where both 
our countries share a mutual interest has created a significantly 
improved bilateral environment, and therefore an opportunity for, 
bilateral and multilateral BMD cooperation.
    An example of this opportunity in a multilateral context was the 
agreement by NATO and Russia at the NATO-Russia Council (NRC) meeting 
in Lisbon on November 20, 2010, to resume theater missile defense 
cooperation and to develop a comprehensive Joint Analysis of the future 
framework for NATO-Russia BMD cooperation.
    In the context of our bilateral relationship, BMD cooperation can 
be a vehicle to bring both the U.S.-Russia and the NATO-Russia 
partnerships to a new level and could enable our two countries to work 
together in a coordinated manner against the common challenges, 
dangers, and threats of ballistic missiles of increasingly greater 
ranges, potentially equipped with weapons of mass destruction.
    As senior Administration officials have explained to Congress, as 
well as to their Russian counterparts, the United States will not agree 
to constrain or limit U.S. missile defenses qualitatively, 
quantitatively, operationally, geographically, or in any other way. The 
Administration is committed to the development and deployment of 
effective missile defenses to protect the United States, our deployed 
forces, and our allies and partners against existing and emerging 
threats.
    Mr. Turner. We understand that the Missile Defense Agency conducted 
a summer study (in 2010) on the hedging strategy. Can you provide the 
committee with the study results and any other detailed contingency or 
hedge plans?
    General O'Reilly. As directed in the Defense Planning and Program 
Guidance (DPPG), the Missile Defense Agency (MDA) along with the 
support of Joint Staff, Combatant Commanders and Federally Funded 
Research and Development Centers, conducted and provided the summer 
study results to the Missile Defense Executive Board. The Department 
can provide, at the classified level, a summary of the results to the 
Committee.
    Mr. Turner. You've stated that the U.S. homeland is currently 
protected against a threat of limited ICBM attack by 30 ground-based 
interceptors located at Fort Greely, Alaska, and Vandenberg, 
California. Discuss why it was then necessary to provide further 
coverage of the United States homeland in Phase 4 of the European 
Phased, Adaptive Approach? What needs/requirements are Phase 4 
capabilities expected to satisfy?
    General O'Reilly. The 2020 Phase 4 architecture adds an additional 
layer of defensive capability that increases the likelihood of 
engagement success against evolving and projected ICBM threats from the 
Middle East. The interceptor's reliability, availability, and 
probability the kill vehicle can acquire and engage a target are all 
factors in the probability of engagement success. Also, as independent 
BMD systems are layered, the probability of engagement success 
increases. The SM-3 IIB interceptor comprises the first layer of our 
homeland defense system, proving early intercept, and the Ground-based 
Midcourse Defense provides the second layer which enhances the overall 
probability of intercepting ICBMs with two different missile defense 
systems. In addition, by having two independent BMD components, the 
system is made more flexible and adaptable to changes in threat missile 
designs and capabilities.
    The development of the SM-3 IIB interceptor with a higher burnout 
velocity and a greater divert capability than other SM-3 variants 
provides an early intercept capability against MRBMs and IRBMs and a 
hedge to augment homeland defense against future potential ICBMs 
launched by today's regional adversaries. Early intercept capabilities 
enhance battlespace with an extended engagement layer that avoids 
wasteful salvos by shooting an interceptor, evaluating the consequence, 
and shooting again only if the first intercept attempt was 
unsuccessful. Intercepting missiles early (pre-apogee) also degrades 
performance of midcourse countermeasures and counters post-apogee 
maneuvering reentry vehicles.
    Mr. Turner. We appear to be seeing troubling new developments in 
both North Korea and Iran's longer-range missile programs. Are you more 
concerned today than last year about the threat of Iran and North Korea 
developing and deploying an IRBM or ICBM? Do these threat developments 
change your approach in any way?
    General O'Reilly. We currently have a Ground-based Midcourse 
Defense system that can provide significant capability against limited 
ICBM attacks against all near-term estimated threats. We continue to 
upgrade the system to ensure we maintain the capability hedge.
    Mr. Turner. You noted in your testimony that the Missile Defense 
Agency supported multiple interoperability demonstrations with NATO's 
Active Layered Theater Ballistic Missile Defense (ALTBMD). Can you 
elaborate on what these demonstrations have shown in terms of 
capability, interoperability, lessons learned, etc.? Also, provide a 
schedule and milestones for ALTBMD plans, including the integration of 
U.S. missile defense capabilities.
    General O'Reilly. The Missile Defense Agency (MDA) has been working 
with the ALTBMD Program Office (PO) for the last four years to document 
U.S.-NATO interoperability requirements in Interface Control Documents 
(ICDs) and to test and demonstrate interoperability between U.S. and 
NATO missile defense systems.
    The MDA has participated in the following missile defense 
demonstrations, tests, and exercises with NATO and Alliance partners:

    January 2008:   Initial interoperability demonstration between the 
U.S. Command and Control, Battle Management and Communications (C2BMC) 
System and a prototype of the NATO Air Command and Control System 
(ACCS).

    November 2008:  Interoperability test between the U.S. Patriot 
system and a prototype of the NATO ACCS.

    January 2009:   Interoperability test between the U.S. Aegis 
Ballistic Missile Defense (Aegis BMD) system and a prototype of the 
NATO ACCS.

    August 2009:    Interoperability test between the U.S. C2BMC system 
and a simulation of the Army/Navy Transportable Radar Surveillance-2 
(AN/TPY-2) system with a prototype of the NATO ACCS.

    July 2010:      Joint Project Optic Windmill (JPOW), a warfighter 
exercise involving the mixture of simulated, hardware-in-the-loop 
(HWIL), and live systems from the U.S., NATO, Germany, Spain, and The 
Netherlands. This event focused on the development of joint Tactics, 
Techniques, and Procedures (TTPs).

    December 2010:  NATO Ensemble Test 1, the first multinational 
interoperability test conducted by NATO with participation from the 
U.S., Germany, Italy, France, and The Netherlands. The U.S. systems 
involved in this test were live and HWIL representations of C2BMC, 
Aegis BMD, Patriot, and a simulation of AN/TPY-2. The NATO systems 
participating in the test were live versions of the ACCS prototype and 
Integrated Command and Control (ICC) that will be deployed as part of 
the NATO Interim Capability-2 (InCa2) at the end of December 2010.

    The tests and exercises with NATO have proven the U.S. C2BMC & AN/
TPY-2, Patriot, and Aegis BMD systems can interoperate with the NATO 
command and control systems and other Alliance systems using 
standardized Tactical Data Links communications (Link-16). The tests 
successfully demonstrated the two-way exchange of situational 
awareness, command and control, health and status, and engagement 
information between the U.S. and NATO systems.
    The emerging results from Ensemble Test 1 indicate the U.S. systems 
will also be interoperable using Link-16 with the German Patriot and 
Surface-to-Air Missiles Operations Center (SAMOC), the French Sol-Air 
Moyenne Portee Terrestre (SAMP/T), the Italian SAMP/T and Horizon/
Principal Anti-Air Missile System (Horizon/PAAMS), and the Dutch 
Patriot and Air Defense and Command Frigate (ADCF).
    MDA, the ALTBMD PO, and military operators from the U.S. European 
Command (EUCOM) and NATO Supreme Headquarters Allied Powers Europe 
(SHAPE) successfully demonstrated during the JPOW exercise that the 
U.S. and NATO interoperability can support a variety of command and 
control Concept of Operations (CONOPs), preplanned engagement 
strategies, and upper-tier/lower-tier coordination schemes that are 
still being developed and agreed upon between the U.S. and NATO.
    The MDA and ALTBMD PO have also conducted a series of planning 
experiments to Demonstrate that military operators from NATO and the 
U.S. can exchange missile defense plans using a NATO approach for 
missile defense operations. As a result of these experiments, the MDA 
is currently working with NATO to revise the Interface Control 
Documents and implementation for the exchange of missile defense 
planning data. The revised approach is more collaborative and will 
reflect the planning method used by U.S. forces today.
    ALTBMD Program Office made Interim Capability-2 (InCa-2) available 
for operations in December 2010, Initial Operational Capability 
(IOC) Increment-1 in 2013 and IOC Increment-2 in late 2014. The first 
NATO 
upper-tier capability is projected in approximately 2016. The figure 
below 
illustrates the draft milestones for the interoperability of U.S. 
Phased, Adaptive


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Turner. Given the recent in-sourcing initiatives, and DoD 
proposals of trimming a percentage of contracting positions, what is 
the current MDA in-sourcing plan? How will the plan address personnel 
shortfalls and address the risks associated with the potential shortage 
of technical expertise?
    General O'Reilly. During the course of FY 2010 MDA established and 
filled 237 civilian authorizations as a result of insourcing actions. 
The continuation of insourcing beyond FY 2010 will be subject to the 
Department's final guidance for the 2012 President's Budget.
    MDA policy also requires each employee to conduct, at a minimum, 80 
hours of mandatory annual training. Functional Managers and supervisors 
develop and issue functional organizational training objectives and 
career guides to ensure a fully trained MDA workforce. Each level of 
supervision requires a commitment to develop employee skills and 
competencies needed to maintain effective job performance, taking into 
account present and future technical skills by employment category. 
Supervisors work with employees to develop Individual Development Plans 
that encompass a short-term, mid-term and long-term career development 
guide that is subject to supervisor approval, and included as part of 
the employee process evaluation. MDA employees are required to obtain 
annual certification for various skill sets and occupational fields. 
For example, as an acquisition centric agency, MDA requires employees 
to obtain Defense Acquisition University (DAU) Certification. DAU 
certification is a tiered program with levels one through three based 
on a combination of experience and responsibility.
    MDA has also established the Missile Defense Career Development 
Program (MDCDP) to ensure we have a workforce with technical expertise 
to meet emergent program requirements. The MDCDP is a two-year 
developmental program consisting of rotational assignments aimed at 
strengthening the overall experience of the participant and preparing 
them for conversion to a permanent government career upon completion. 
MDA presently has 279 participants in the MDCDP.
    MDA has significant technical expert resources (FFRDCs, UARs, CCS, 
universities, industry, national labs). We continue to align the 
application of this significant technical expertise to meet challenges 
while continuing to seek greater efficiency.
    Mr. Turner. We understand that the Missile Defense Agency conducted 
a summer study (in 2010) on the hedging strategy. Can you provide the 
committee with the study results and any other detailed contingency or 
hedge plans?
    Admiral Macy. We must defer this question to the Missile Defense 
Agency, as the study results are classified and MDA has responsibility 
for access.
    Mr. Turner. Admiral Macy, please provide the committee with any 
analysis and contingency plans for defense of the U.S. homeland under 
the following scenarios: 1) where the missile fields in Alaska are not 
able to shoot, 2) where the missile fields in California are not able 
to shoot, or 3) one of the upgraded early-warning radars (e.g., at 
Fylingdales or Thule) are not operational.
    Admiral Macy. Specific contingency plans are more appropriately the 
purview of the combatant commander, and the Joint Staff would defer to 
U.S. Northern Command on this topic. However, as a general 
developmental principle, the Ballistic Missile Defense System is 
designed to provide backup capability for scenarios such as those 
described.
    Mr. Turner. You've stated that the U.S. homeland is currently 
protected against a threat of limited ICBM attack by 30 ground based 
interceptors located at Fort Greely, Alaska, and Vandenberg, 
California. Discuss why it was then necessary to provide further 
coverage of the United States homeland in Phase 4 of the European 
Phased, Adaptive Approach? What needs/requirements are Phase 4 
capabilities expected to satisfy?
    Admiral Macy. Phase 4 of the European Phased, Adaptive Approach 
(EPAA) addresses several requirements. The first is redundancy. The 
ability to put up more than one layer of defensive capability increases 
the likelihood of success. The SM-3 IIB interceptor, to be deployed in 
Phase 4 of the EPAA, will be the first layer of our homeland defense 
system, with Ground-based Midcourse Defense (GMD) providing the second 
layer to enhance the overall probability of intercepting 
intercontinental ballistic missiles (ICBMs). Second, having an 
additional capability against an ICBM threat to the homeland provides a 
backup if for some reason there is a development or performance issue 
with the Ground-Based Interceptors (GBIs), or a temporary outage or 
failure of one of the systems. Third, the SM-3 IIB design is different 
from that of the GBIs, which provides additional assurance that the 
system will be able to respond effectively to changes in threat missile 
designs or capabilities. Finally, the additional interceptors in Europe 
will allow us to engage raids of larger size should the growth of the 
threat inventory exceed current projections.
    Mr. Turner. We appear to be seeing troubling new developments in 
both North Korea and Iran's longer-range missile programs. Are you more 
concerned today than last year about the threat of Iran and North Korea 
developing and deploying an IRBM or ICBM? Do these threat developments 
change your approach in any way?
    Admiral Macy. We continue to watch North Korea and Iran closely, 
but there have been no developments that have necessitated significant 
changes to the planned development of the U.S. Ballistic Missile 
Defense Systems (BMDS). Because of continuing improvements in the 
Ground-based Midcourse Defense (GMD) system and the number of ground-
based interceptors now deployed compared to potential North Korean and 
Iranian long-range ballistic missile capabilities, the United States 
possesses a capability to counter the projected threat from North Korea 
and Iran for the foreseeable future. With regard to deployment of BMD 
assets, the essence of a phased, adaptive approach to regional missile 
defense is the flexibility to phase our fielding to improvements in BMD 
capability, and to be adaptive to changes in the threat.
    Mr. Turner. Dr. Miller credited the Bush Administration with 
pursuing missile defense cooperation with Russia. Yet the Obama 
Administration has criticized its predecessors for lack of such 
cooperation. What is this Administration offering to Russia that you 
believe could lead to Moscow's participation despite criticism from its 
government officials of the European Phased, Adaptive Approach and 
threats of an ``arms race'' if the U.S. improves its missile defenses?
    Mr. Rose. The Obama Administration believes that missile defense 
cooperation with Russia is in the national security interests of the 
United States, as did the Bush Administration.
    The Administration is optimistic about the prospects for ballistic 
missile defense (BMD) cooperation with Russia. We believe that our 
ongoing efforts to work collaboratively with Russia in areas where both 
our countries share a mutual interest has created a significantly 
improved bilateral environment, and therefore an opportunity for, 
bilateral and multilateral BMD cooperation.
    An example of this opportunity in a multilateral context was the 
agreement by NATO and Russia at the NATO-Russia Council (NRC) meeting 
in Lisbon on November 20, 2010, to resume theater missile defense 
cooperation and to develop a comprehensive Joint Analysis of the future 
framework for NATO-Russia BMD cooperation.
    In the context of our bilateral relationship, the Administration's 
view is that BMD cooperation may well be a vehicle to bring both the 
U.S.-Russia and the NATO-Russia partnerships to a new level and could 
enable our two countries to work together in a coordinated manner 
against the common challenges, dangers, and threats of ballistic 
missiles of increasingly greater ranges, potentially equipped with 
weapons of mass destruction.
    As senior Administration officials have explained to Congress, as 
well as to their Russian counterparts, the United States will not agree 
to constrain or limit U.S. missile defenses qualitatively, 
quantitatively, operationally, geographically, or in any other way. The 
Administration is committed to the development and deployment of 
effective missile defenses to protect the United States, our deployed 
forces, and our allies and partners against existing and emerging 
threats.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
